                                                                            Table of Contents

                      THE LIBRARY OF CONGRESS
                    Financial Statements for Fiscal Year 2009

                              TABLE OF CONTENTS
                                                                                 PAGE

MANAGEMENT=S DISCUSSION AND ANALYSIS

      Introduction                                                                     1
      The Library of Congress and Its Mission                                          1
      Strategic Plan                                                                   1
      Brief History                                                                    1
      The Library of Congress Today                                                    3
      Overview of Financial Statements                                                 4
      Key Performance Targets                                                         10
      Major Goals and Accomplishments                                                 12
      Management Control Program, Systems, Controls and Legal Compliance              22
      Limitations of the Financial Statements                                         22

FINANCIAL STATEMENTS AND NOTES

      Consolidated Balance Sheets                                                     23
      Consolidated Statements of Net Costs                                            24
      Consolidated Statements of Changes in Net Position                              25
      Combined Statements of Budgetary Resources                                      26
      Notes to the Consolidated Financial Statements                                  27

MANAGEMENT REPORT

      Assessment of Condition of Heritage Assets                                      56

REPORT OF INDEPENDENT AUDITORS
    Results of the Library of Congress FY 2009 Financial Statements Audit             57
    Independent Auditor’s Report                                                      59




                                                                                            i
                                                                              Management’s Discussion and Analysis


                              THE LIBRARY OF CONGRESS
                             Management’s Discussion and Analysis
                                       Fiscal Year Ended September 30, 2009


                                                   Introduction
The Management’s Discussion and Analysis (MDA) is designed to provide a high level overview of the Library:
who we are, what we do, and how we accomplished our mission during fiscal year 2009.


                                The Library of Congress and Its Mission
The Library of Congress, an agency in the legislative branch of the government, is the world's largest and most
comprehensive library, managing 92 collections – many of them having unique and irreplaceable items – in more
than 470 languages. It directly serves not only the Congress, but also the entire nation with the most important
commodity of our time: information.

The Library's mission is to make its resources available and useful to the Congress and the American people and to
sustain and preserve a universal collection of knowledge and creativity for future generations.


                                                  Strategic Plan
With the leadership and avid engagement of the Librarian of Congress, the Library developed its current Strategic
Plan through a coordinated and collaborative, institution-wide effort, including Library executives, senior managers,
and key subject matter experts. This effort narrowed the focus of the institution’s goals from 18 organization-based
goals in the previous Strategic Plan, to five discrete institution-wide strategic goals: Content, Customers, Outreach,
Organization and Workforce. Through its strategic plan, the Library of Congress charted a course for achieving
measurable results and codified its accountability to the American public and their elected representatives.

The strategic plan’s goals not only set broad outcomes that each of the ten major organizations relate to, but also
establish broad strategies to be followed and define performance indicators to determine progress toward achieving
the goals and outcomes. Supported by a rigorous annual program performance planning process, and regular
program performance assessment reviews, the strategic plan ensures Library organizations are all working toward
common ends and provides the background guidance for the Library’s annual Congressional Budget Justification
requests.


                                                  Brief History
At the dawn of the 19th century, the American Republic was still little more than a bold experiment. Barely a decade
removed from the establishment of constitutional democracy, our lasting future as a nation was not yet assured and
our national character was only beginning to emerge.

It was in this context that the U.S. Congress created what would become one of the greatest and most distinctly
American institutions. Mindful of the link between an informed people and functional governance, the Congress in
1800 established the Library of Congress by appropriating $5,000 to purchase a collection of 740 books and three
maps.

President Thomas Jefferson would make early and indelible contributions to the growing Library, signing a law in
1802 defining the institution’s roles and functions, creating the first joint congressional committee (the Joint
Committee on the Library) and establishing the position of Librarian of Congress.




                                                                                                                      1
                                                                              Management’s Discussion and Analysis


After the British burned the Capitol during the War of 1812, destroying the Library’s collection of some 3,000
volumes, it was Jefferson who again would help ensure that the Library of Congress would endure as a central
contributor to American democracy, culture and intellect. Accepting the now-retired president’s offer to
“recommence” the Library, the Congress in 1815 purchased Jefferson’s 6,487-volume personal collection (then the
finest in America) at a price of $23,950. It contained books in many languages and on a wide variety of topics,
reflecting Jefferson’s belief that there was “no subject to which a Member of Congress might not have occasion to
refer.”

While its origins were humble, six key milestones in the Library’s early decades significantly expanded its scope
and reach:

    •    The establishment of the Law Library in 1832 as the first department of the Library of Congress recalled
         the Library’s origins as a collection of law books to support the legislative work of the Congress. The Law
         Library remains the only source for the Congress for research and reference services in foreign,
         comparative, and international law.

    •    The Copyright Law of 1870 centralized the nation’s copyright functions in the Library and stipulated that
         two copies of every book, pamphlet, map, print, photograph, and piece of music registered for copyright in
         the United States be deposited in the Library. The law reflected Jefferson’s aspirations for the Library as a
         universal repository of knowledge.

    •    In 1886, the Congress authorized the first separate Library of Congress building to contain openly
         accessible reading rooms and exhibition space for the general public. In 1897, the Thomas Jefferson
         Building officially opened to the public.

    •    In 1902, the Congress authorized the Library to sell copies of its cataloging records inexpensively to the
         nation's libraries, thus substantially subsidizing the entire American library system.

    •    In 1914 the Congress created the Legislative Reference Service (LRS) as a separate entity within the
         Library to provide specialized services to “Congress and committees and Members thereof.” Additional
         laws enhanced its mission in 1946 and 1970, when it was renamed the Congressional Research Service.

    •    In 1931, the Congress established a program in the Library to create and supply free library materials to
         blind and physically handicapped readers throughout the country.

In addition, Congress since the mid-1970s has statutorily created 10 programs that have further enhanced the
Library’s national role.

    •    American Folklife Center (1976)
    •    American Television and Radio Archives (1976)
    •    National Center for the Book (1977)
    •    National Film Preservation Board (1988)
    •    National Film Preservation Foundation (1996)
    •    Cooperative Acquisitions Program Revolving Fund (1997)
    •    Sound Recording Preservation Board and Foundation (2000)
    •    Three revolving funds for fee services (2000)
    •    National Digital Information Infrastructure and Preservation Program (NDIIPP) (2000)
    •    Digital Collections and Educational Curricula Program (2005)

Of these programs, the NDIIPP was the most ambitious, as Congress tasked the Library with developing a plan and
leading an effort to ensure that important digital materials can be preserved for our national information reserve.
The NDIIPP program demonstrates the foresight of the Congress in its imperative to preserve critical data that
typically exists in an unstable and transient environment.




2
                                                                                Management’s Discussion and Analysis


                                       The Library of Congress Today
Today, as the Library of Congress advances further into its third century, there is still no more fitting a symbol of its
vision and aspirations than the Library’s 1897 building that bears Jefferson’s name. Constructed as a projection of
American optimism near the turn of the 20th century, the Thomas Jefferson Building is resplendent with iconography
and written inspirations that describe the Library’s past and, more importantly, guide its future.

The gilded Torch of Knowledge surmounts the building, while directly beneath on the underside of the dome is the
mural Human Understanding, embodied by a woman removing the veil of ignorance from her eyes. Below the
dome is the magnificent Main Reading Room, which was the Library’s original means of providing the information
that is critical to an informed citizenry.

As the Library of Congress extends its reach in the modern era, an information revolution is empowering not just
countries and companies, but also individuals in the farthest reaches of the globe. Our mission remains the same,
but it is more important than ever when set against a landscape of dynamism and intense international competition.

In his June 2005 testimony to Congress, Librarian of Congress James H. Billington said: “Libraries are inherently
islands of freedom and antidotes to fanaticism. They are temples of pluralism where books that contradict one
another stand peacefully side by side on the shelves, just as intellectual antagonists work peacefully next to each
other in reading rooms.”

Those words hearken back to the Library’s early days and Thomas Jefferson’s vision of a society wherein the widest
variety of information was readily available to the greatest possible number of people. “I feel … an ardent desire,”
Jefferson said, “to see knowledge so disseminated through the mass of mankind that it may, at length, reach even the
extremes of society; beggars and kings.” (Thomas Jefferson: Reply to the American Philosophical Society, 1808.)

Through its strategic plan, the Library of Congress will be accountable to the American public and their elected
representatives, and measured by the results that are achieved. We seek nothing less than to be ardent champions
furthering the cause of human understanding and wisdom.

Past, present and future, the Library of Congress endeavors to remain the preeminent repository of information on a
global scale, an inspiration to future generations, and a celebrant of achievement–-a Torch of Knowledge that
continues as a shining beacon for all the world.

The Librarian of Congress, appointed by the President with the advice and consent of the Senate, directs the Library.
The Chief Operating Officer manages the day-to-day operations through five service units and an enabling
infrastructure (see organizational chart).

The Library’s programs and activities are primarily funded by four salaries and expenses (S&E) appropriations (the
National and Law Library Services, Copyright administration, Congressional Research Service, and Books for the
Blind and Physically Handicapped), receipts from offsetting collections (Copyright registrations, Cataloging
Distribution Service fees and Law Library Global Legal Information Network (GLIN) receipts), revolving fund
(business-like) income, donations and investment income.




                                                                                                                       3
                                                                                                                                                                                Management’s Discussion and Analysis



                                Office of the Inspector General                                          The Librarian of Congress                                                                            Congressional Relations Office


                                                                                                                                                                                                              Office of the General Counsel
                              Office of Opportunity, Inclusiveness                                        Chief Operating Officer
                                        and Compliance
                                                                                                                                                                                                                  Office of Communication

                          Office of Contracts and Grants Management
                                                                                                                                                                                                       Office of Special Events and Public Programs


                                                                                                                                                                                                                    Development Office



             Congressional Research                         Copyright Office                                         Law Library                                                    Library Services                                            Office of Strategic
                    Service                                                                                                                                                                                                                         Initiatives
                                                                                                              •Office of the Law Librarian                        •Office of the Associate Librarian
                                                     •Office of the Register
    •Office of Director
                                                                                                              •Law Library Services Directorate                   •Acquisitions & Bibliographic Access                                  •Office of the Associate Librarian
                                                     •Acquisitions Division
    •American Law
                                                                                                              •Legal Research Directorate                         •Collections & Services                                               •Digital Initiatives
                                                     •Registration & Recordation Program
    •Domestic Social Policy
                                                     •Information & Records Division                                                                              •Partnerships & Outreach Programs                                     •Information Technology Services
    •Foreign Affairs, Defense and Trade
                                                     •Receipt Analysis & Control Division                                                                         •Technology Policy                                                    •National Digital Information
    •Government & Finance                                                                                                                                                                                                               Infrastructure Preservation Program
                                                     •Licensing Division                                                                                          •Administrative Services
    •Resources, Science & Industry                                                                                                                                                                                                      •Teaching with Primary Sources
                                                     •Copyright Royalty Judges                                                                                    •National Audio-Visual Conservation Center
    •Knowledge Services Group
                                                                                                                                                                  •American Folklife Center
    •Office of Finance and Administration
    •Office of Legislative Information
    •Office of Workforce Development
    •Office of Research                                                                          Management Support Services
    •Office of Congressional Affairs and
    Counselor to the Director



                 Office of the Chief Financial Officer                         Human Resources Services                                                                                                Security and Emergency Preparedness
                                                                                                                                             Integrated Support Services
                                                                           •Office of Director
                   •Office of the CFO
                                                                           •Workforce Performance & Development                             •Office of Director                                        •Office of Director
                   •Strategic Planning Office
                                                                           •Workforce Acquisitions                                          •Facility Services                                         •Personnel Security Office
                   •Budget Office
                                                                           •Workforce Management                                            •Health Services                                           •Emergency Preparedness Office
                   •Accounting Operations Office
                                                                           •Worklife Services Center                                        •Logistics Services                                        •Protective Services
                   •Financial Reports Office
                                                                           •Strategic Planning & Automation                                 •Office Systems Services
                   •Disbursing Office
                                                                                                                                            •Safety Services




Library Services includes the National Library Service for the Blind and Physically Handicapped (NLS/BPH),
which is within Partnerships and Outreach Programs; NLS/BPH program costs are reported individually and other
Library Services program costs are reported under the National Library Program.

The Office of Strategic Initiatives includes Information Technology Services; program costs are reported under the
National Library Program and infrastructure costs are allocated.



                                                                               Overview of Financial Statements
For fiscal years 2009 and 2008, the Library has prepared Consolidated Balance Sheets, Consolidated Statements of
Net Costs, Consolidated Statements of Changes in Net Position, and Combined Statements of Budgetary Resources.

Consolidated Balance Sheets

The purpose of the consolidated balance sheet is to provide financial statement users with information about the
Library’s assets, liabilities, and net position as of September 30, 2009 and 2008. In accordance with generally
accepted accounting principles for federal government entities, the value of the Library’s collections (our largest
asset) is not calculated and reported with a monetary value. Instead, the Library reports unit measurement, mission
and acquisition information in the financial statement notes (see Section 2), and provides other relevant information
about their use, preservation, security, etc. in supplemental information (see Section 3). The Library’s Net Position
consists of: (1) the portion of the Library’s appropriations that are unexpended; and (2) the cumulative balances of
gift, trust, revolving and reimbursable funds.




4
                                                                                Management’s Discussion and Analysis


                            (in millions)                                                       (in millions)
      Assets            FY 2009      FY 2008             Liabilities and Net Position       FY 2009           FY 2008
                                                        Liabilities Covered by
Entity Assets       $       569.7 $     544.7                                                $      120.8 $    1,304.6
                                                        Budgetary Resources
                                                        Liabilities Not Covered by
Non-Entity Assets                     1,193.8                                                $       34.0         32.7
                                                        Budgetary Resources
                                                        Total Liabilities                    $      154.8 $    1,337.3
                                                        Net Position                                414.9        401.2
                                                        Total Liabilities and Net
Total Assets        $       569.7 $   1,738.5                                                $      569.7 $    1,738.5
                                                        Position

The Library’s assets total $569.7 million for fiscal year 2009 and just over $1.7 billion for fiscal year 2008. In
accordance with generally accepted accounting principles effective in fiscal year 2009, the Library’s Balance Sheet,
as well as notes related to specific items on the Balance Sheet, will no longer include Non-Entity Assets. Entity
assets increased by $25.0 million during fiscal year 2009. Significant increases include $4.1M of Fund Balance with
Treasury and $4.5M of accounts receivable corresponding to the increase in funds advanced and pending advance,
respectively, from other governmental agencies for the FEDLINK and other intra-governmental revolving fund
programs

The Library’s liabilities total $569.7 million and $1,337.3 million for fiscal years 2009 and 2008, respectively, with
the aforementioned new accounting principle change as the major reason for the decrease. Significant liabilities
include the aforementioned funds advanced from other governmental agencies for the FEDLINK and other intra-
governmental revolving fund program and accounts payable for various operating expenses.

In general, the accompanying Balance Sheets do not include the acquisition and improvement costs of the Library's
buildings and grounds. By law, these buildings and grounds are under the structural and mechanical care of the
Architect of the Capitol.

Consolidated Statements of Net Costs

The purpose of the Consolidated Statements of Net Costs is to provide financial statement users with information
about the costs and earned revenues for the Library’s six programs for the fiscal years ended September 30, 2009
and 2008. In other words, the statements present the net costs of our programs $736.7 million and $663.5 million
for the fiscal years 2009 and 2008, respectively. Net costs include allocated management support costs (e.g., human
resources, financial services, facility services).




                                                                                                                        5
                                                                                                              Management’s Discussion and Analysis


The net costs for each of the Library’s six programs are:

                                       Consolidated Statement of Net Costs
                              Fiscal Year 20 09 - $736.4M                        Fiscal Year 2008 - $663.5M

      $500
              $457.7 $425.7
      $450

      $400

      $350

      $300

      $250

      $200
                                                                    $139.4 $129.2
      $150

      $100
                                                  $43.9 $20.9                            $52.0 $45.5
        $50                       $25.0 $23.5                                                                  $18.5 $18.8

         $0
              Nati onal Library     Law Library   Copyrigt Office     Congre ssi oinal   Nat'l Lib Serv for   R eimbursing and
                                                                     Research Service    Bli nd & Pys Hand    Revolving Funds



National Library - With net program costs of $457.7 million and $425.7million for fiscal years 2009 and 2008,
respectively, National Library is the Library’s largest program and is responsible for the traditional library activities
of acquisitions, cataloging, research and reference, and preservation.

National Library manages the following programs and services:
    Acquisitions – Each year the Library acquires more than two million new items in all formats for addition to its
    priceless collections, which are the largest and most wide-ranging of any library in the world. The collections,
    and the information they contain, are the foundation for the many services the Library provides to the Congress
    and the nation.

    Cataloging – The Library produces bibliographic records, standards, and related products for the Library as
    well as for libraries and bibliographic utilities in all fifty states and territories and many other countries.

    Research and Reference – The Library makes available to scholars and other researchers vast information
    resources, many of which are unique, covering almost all formats, subjects, and languages. The Library
    provides reference assistance to researchers and the general public, conducts field research, and promotes the
    preservation of American culture throughout the United States. The Library responds to information requests
    from across the nation, including requests in person in the reading rooms open to the public in Washington. In
    addition, the Library responds to free interlibrary loan requests from across the nation and requests for book
    loans from the Congress each year.

    Online Access Services – The Library provides free online access via the Internet to its automated information
    files, which contain records – to Congressional offices, Federal agencies, libraries, schools, and the public.
    Internet-based systems include three World Wide Web (WWW) services (e.g., THOMAS, www.loc.gov), the
    Library of Congress Online Public Access Catalog (http://catalog.loc.gov), and various file transfer options.

    American Creativity – The Library manages the nation’s largest, most varied, and most important archival
    collection of American creativity including motion pictures, sound recordings, maps, prints, photographs,
    manuscripts, music, and folklore covering a wide range of ethnic and geographic communities.




6
                                                                              Management’s Discussion and Analysis


    Preservation – The Library manages a continuing program to preserve and extend the life of the diverse
    materials and formats in the Library's collections. The program provides a full range of prospective and
    retrospective preservation treatment for hundreds of thousands of items a year; conducts research into new
    technologies; emphasizes preservation techniques including proper environmental storage and training for
    emergency situations; conserves and preserves materials; and reformats materials to more stable media. The
    Library plays a key role in developing national and international standards that support the work of federal,
    state, and local agencies in preserving the nation's cultural heritage.

    Reading Promotion and Outreach – The Library promotes books, reading, and literacy through the Library's
    Center for the Book, its affiliated centers in 50 states and the District of Columbia, and more than 80 national
    organizational partners. The Library encourages knowledge and use of its collections through other outreach
    programs (cable TV, lectures, publications, conferences and symposia, exhibitions, poetry readings – all
    primarily supported by private funding) and through use of the Library's home page on the World Wide Web.
    The Library also gives surplus books annually to qualified libraries and nonprofit educational institutions
    through its nationwide donation program. Finally, the ninth National Book Festival was held on September 26,
    2009, on the National Mall and had more than 130,000 attendees.

    Digital Initiatives – The Library oversees and coordinates cross-institutional digital initiatives, including the
    NDIIPP, thereby ensuring access over time to a rich body of digital content through the establishment of a
    national network of committed partners, collaborating in digital preservation architecture with defined roles and
    responsibilities.

Law Library – The Law Library of Congress, with net program costs of $25.0 and $23.5million for fiscal years
2009 and 2008, respectively, provides direct research service to the Congress in foreign, international, and
comparative law. In addition to Members, Committees of the Congress and the Congressional Research Service, the
Law Library provides officers of the legislative branch, Justices of the Supreme Court and other judges, members of
the Departments of Homeland Security, State and Justice, and other federal agencies with bibliographic and
informational services, background papers, comparative legal studies, legal interpretations, and translations. As its
congressional priorities permit, the Law Library makes its collections and services available to a diverse community
of users, including members of the bench and bar, educational institutions, nongovernmental libraries, legal service
organizations, the foreign diplomatic corps, international organizations, and the general public.

Copyright Office (including the Copyright Royalty Board) – The Copyright Office (COP), with net program
costs of $43.9 million and $20.9 million for fiscal years 2009 and 2008, respectively, administers the U.S. copyright
laws, provides copyright policy analysis to the Congress and executive branch agencies, actively promotes
international protection for intellectual property created by U.S. citizens, and provides public information and
education on copyright. In fiscal year 2008, COP implemented its reengineered operations included capital costs
for new information technology operation and redesigned facilities, which lowered their net costs as these types of
costs are spread over several years. In fiscal year 2009, no equivalent costs were incurred thus returning COP back
to historical net cost levels. In fiscal year 2009, the COP registered 382,086 claims to copyright; transferred
739,364 works to the Library; recorded 10,207 documents containing more than 300,000 titles, logged 23,737,782
page views on its web site, and responded to 359,882 in-person, telephone and e-mail requests for information. The
Copyright Royalty Board (CRB) composed of three Copyright Royalty Judges and their staff under the aegis of the
Librarian of Congress directed distribution of hundreds of millions of dollars in royalties that are collected under
various compulsory license provisions of the copyright law, and adjusts the royalty rates of these license provisions.
Registration fees and authorized deductions from royalty receipts fund almost half of the COP. Copies of works
received through the copyright system form the core of the Library’s immense Americana collections, which
provide the primary record of American creativity.

Congressional Research Service – The Congressional Research Service (CRS), with net program costs of $139.4
and $129.2 million for fiscal years 2009 and 2008, respectively, provides non-partisan analytical research and
information services to all Members and committees of the Congress. CRS assists the Congress with its
deliberations and legislative decisions by providing objective, authoritative, non-partisan, and confidential research
and analysis. Serving Congress exclusively, CRS experts work alongside the Congress at all stages of the legislative
process and provide integrated and interdisciplinary analysis and insights in all areas of policy interest. CRS support




                                                                                                                     7
                                                                                Management’s Discussion and Analysis


takes the form of reports, tailored confidential memoranda, individual consultations and briefings, and formal
seminars.

National Library Service for the Blind and Physically Handicapped (NLS/BPH) – The NLS/BPH, which is part
of Library Services, manages a free national reading program for blind and physically handicapped people -
circulating millions of items a year at no cost to users. This program consists of three segments:

    1.   The Library of Congress selects and produces full-length books and magazines in Braille and on recorded
         disc and cassette and contracts for the production of talking book machines. The NLS/BPH’s fiscal years
         2009 and 2008 net program costs for this segment were $52.0 and $45.5 million, respectively.

    2.   A cooperating network of regional and sub regional (local) libraries distribute the machines and library
         materials provided by the Library of Congress.

    3.   The U.S. Postal Service receives an appropriation to support postage-free mail for magazines, books, and
         machines, which are sent directly to readers. Reading materials (books and magazines) and playback
         machines are sent to a total readership of audio and Braille readers registered individually, in addition to
         eligible individuals located in institutions.

Revolving and Reimbursable Funds - Under the authority of 2 U.S.C. 182, the Library operates the Cooperative
Acquisitions Program revolving fund, the revolving fund for duplication services associated with the Packard
Campus for Audio-Visual Conservation, the revolving fund for gift shop, decimal classification, photo duplication,
special events and public programs and related services, and the revolving fund for the Federal Library and
Information Network (FEDLINK) program and Federal Research program. 2 U.S.C. 182 was amended in fiscal
year 2003 to authorize the Library’s special events and programs activities under the revolving fund statute.
Through these activities, the Library is able to further its programs dealing with the acquisition of library materials,
reader and reference services, and support for public programs. The Library also provides reimbursable accounting
services for four legislative agencies under cross-servicing agreements (i.e., the Congressional Budget Office, the
Office of Compliance, the Abraham Lincoln Bicentennial Commission, and the Open World Leadership Center).

After reflecting earned revenues of $83.4 and $78.8 million in fiscal years 2009 and 2008, respectively,
reimbursable and revolving fund net program costs totaled $18.5 and $18.8 million, respectively. The net program
costs were the result of the elimination of $7.4 and $7.6 million of intra-Library net revenues, $10.1 and $9.1 million
in allocated administrative overhead,$2.0 and $1.8 million for both fiscal years in imputed inter-governmental costs
(e.g., employee benefits) not recovered by fees charged by the revolving funds for fiscal years 2009 and 2008,
respectively.

General descriptions of major revolving fund activities are:

    Cooperative Acquisitions Program - The Cooperative Acquisitions Program, which is operated by the
    Library’s six overseas field offices, acquires foreign publications and research materials on behalf of
    participating institutions on a cost-recovery basis. Earned revenues were $2.9 million for fiscal year 2009 and
    $3.1 million for fiscal year 2008.

    Duplication Services – Duplication Services provides preservation services for the Library's audio and visual
    collections, and products are also produced for sale to the general public. Earned revenues for fiscal years 2009
    and 2008 were $0.1million and $0.3 million, respectively, of which $0.1 million in fiscal year 2008 was for
    intra-Library transactions, which were eliminated for both years in the consolidated statements.

    Gift Shop, Decimal Classification, Document Reproduction and Microfilm Services, Special Events and
    Programs and related services – This revolving fund provides for the operation of a gift shop or other sales of
    items associated with collections, exhibits, performances, and special events of the Library of Congress;
    decimal classification development services; the preservation and microfilming services for the Library's
    collections and reproduction services to other libraries, research institutions, government agencies, and
    individuals in the United States and abroad; and the hosting of special events and programs by corporate and
    non-profit entities that support the Library’s mission. Earned revenues were $5.8 million and $6.9 million in


8
                                                                              Management’s Discussion and Analysis


    fiscal years 2009 and 2008, respectively, and intra-Library transactions of $1.2 million and $2.4 million were
    eliminated during consolidation.

    The FEDLINK program and Federal Research program (FRP) – FEDLINK serves federal libraries and
    information centers as their purchasing, training and resource-sharing consortium. As the FLICC business
    subsidiary, the program provides cost effective access to an array of automated information and retrieval, print
    serials, books, electronic publications and preservation services. FEDLINK contracts with more than 130 major
    vendors to provide services to Federal offices participating in the program, saving the offices in cost avoidance
    benefits and in vendor volume discounts. The Federal Research Program provides customized research services
    that the Library is uniquely able to perform as a result of its collections and the subject and language expertise
    of its staff. A popular FRP product, available on-line via the Library's home page, is the country study series of
    books. In fiscal years 2009 and 2008, earned revenues were $78.0 and $71.4 million, respectively, and intra-
    Library transactions of $0.8 million and $1.3 million were eliminated during consolidation.

Consolidated Statements of Changes in Net Position

The purpose of the Consolidated Statements of Changes in Net Position is to provide financial statement users with
information about the Library’s financing sources and the components of the changes in net position. The Library’s
financing sources totaled $738.3 million and $658.4 million for the fiscal years ended September 30, 2009 and 2008,
respectively.

                    Consolidated Statements of Changes in Net Position
                                  Total Financing Sources

                       Fiscal Year 2009: $738.3M            Fiscal Year 2008: $650.9M
                   $588.4 $546.4
          $600

          $500

          $400

          $300

          $200
                                                               $92.1 $81.3
                                          $59.6 $45.4
          $100                                                                       -$1.8 -$22.2

            $0

         -$100
                   Appr opriations        Donations        Im puted Financing Other Non Exchange
                        Used                                                        Revenue


The major source of the Library’s funding is from Congressional appropriations for five programs: National Library,
Law Library, Copyright Office, Congressional Research Service, and National Library Service for the Blind and
Physically Handicapped. Appropriations used during the fiscal years ended September 30, 2009 and 2008 totaled
$588.4 and $546.4 million or 78 and 84 percent for fiscal years 2009 and 2008, respectively, of all financing. Along
with appropriations made directly to the Library, other government agencies (i.e., the Architect of the Capitol, the
Office of Personnel Management [OPM], Government Printing Office) used Congressional appropriations and other
financing sources to provide support for the Library’s programs totaling an estimated $92.1 and $81.3 million
(imputed financing) for fiscal years 2009 and 2008, respectively. The support provided included structural care and
maintenance of the Library’s buildings and grounds ($58.1million and $51.6 million), employee benefits ($30.9
million and $28.6 million), acquisitions exchange services ($2.3 million and $1.1 million) and legal claims ($0.8
million for fiscal year 2009). Other non-exchange revenues are negative for fiscal years 2009 and 2008




                                                                                                                     9
                                                                                Management’s Discussion and Analysis


primarily due to the unrealized loss or gains on non-treasury investments, as the loss for fiscal year 2009 was not as
big as the loss for fiscal year 2008.

The Library’s net position increased by $13.6 million during fiscal year 2009, primarily due to the increase in
unexpended appropriations, as more were received than used in fiscal year 2009.

Combined Statements of Budgetary Resources

The Combined Statements of Budgetary Resources and the related disclosures provide information about how
budgetary resources were made available, as well as their status at the end of the period. The Budgetary Resources
section of the statement presents the total budgetary resources available to the Library. The Status of Budgetary
Resources section of the statement presents information about the status of budgetary resources at the end of the
period. Finally, the Outlays section presents the total outlays of the Library and relates obligations incurred to total
outlays.

The Library’s budgetary resources were $2.3 billion and $2.2 billion for the fiscal years ended September 30, 2009
and 2008, respectively, of which $0.6 billion were from appropriated funds for both years and $1.7 billion and $1.6
billion were from non-appropriated funds for fiscal years ended September 30, 2009 and 2008, respectively. Total
outlays of $869.9 and $744.9 million were incurred with the outlays of appropriated funds ($583.4 million and
$542.1million) combined with outlays of the non-appropriated funds ($286.4 million and $202.8 million) in fiscal
years 2009 and 2008. The increase in outlays is largely a result of an increase of Copyright licensing distributions
during fiscal year 2009.


                                           Key Performance Targets


Beginning with the fiscal year 2009 Budget Justification, the Library adopted a more performance-focused approach
toward describing the results we plan to achieve. To ensure the proper focus, Library organizations connect their
annual strategies and performance targets to the goals of The Library of Congress Strategic Plan Fiscal Years 2008
– 2013. Following that pattern, the key performance targets listed below are summarized by their connection to the
three mission-focused strategic plan goals. The targets presented are by no means an exhaustive list of everything
being tracked and measured by Library organizations.

Strategic Goal – Content: Expand and preserve in accessible form a universal body of knowledge and creativity.

               Performance Targets                                        Accomplishments
     Increase the number of pre-1978 copy-         Funding was not received until February 2009. Material
     right records available on-line by 5-10       analysis identified the effort was more complex than
     million per year.                             originally estimated. Preparation and testing identified best
                                                   methods for beginning large scale digitization planned for
                                                   fiscal year 2010.
     Ensure 60 percent of Congressional            In fiscal year 2009, 62 percent of research issues drew on
     Research Service (CRS) research teams         expertise from at least four of the six CRS research divisions.
     include at least four research divisions.
     Ensure the Global Legal Information           During fiscal year 2009, 1,027 summaries of U.S. laws, court
     Network (GLIN) stays current with U.S.        decisions, and legislative records were entered into GLIN.
     laws.
     Use strategic collecting policies to          Collections and Services staff analyzed 36 collections to
     enhance current and new collections           ascertain present and future needs of researchers. Staff
     areas in response to changes in American      identified and recommended effective acquisition strategies
     and international life                        for developing Library collections. As a result, research
                                                   collections were substantially augmented in all formats.
     Increase the volume of digitized content      The cumulative volume of information available as of
     available to the public                       September 30, 2009 was 105.68 terabytes, an increase of 40



10
                                                                                Management’s Discussion and Analysis


                                                   terabytes compared to the close of fiscal year 2008, and
                                                   exceeding the fiscal year 2009 target of 93.6 terabytes.


Strategic Goal – Customers: Improve our internal and external customers’ experience in seamlessly finding and
using Library resources.

               Performance Targets                                         Accomplishments
     Improve processing times for copyright        Overall processing time approximately doubled across the
     registrations and recordations.               year for registrations, recordation time rose slightly. The
                                                   number of actions on hand, however, stabilized at the end of
                                                   the year; Copyright remains cautiously optimistic this
                                                   represents a change in the trend of processing time.
     Ensure at least 85 percent of actively        By the end of fiscal year 2009, CRS had exceeded the target,
     maintained research products are closely      with 86% of active products linked to the agenda helping to
     associated with the research agenda.          ensure that CRS research is directly relevant to the policy
                                                   issues on the congressional agenda.
     Create special collections of digital legal   The collection of 126 Legal Blogs for 2007 and 2008 were
     material in response to world events.         posted on LAW’s website and organized by subject for
                                                   researchers' use. The Abraham Lincoln digital collection of
                                                   rare materials was created and posted on the website. The
                                                   Sonia Sotomayor Supreme Court nomination collection was
                                                   also posted on the website.
     Improve and increase access to the            Almost 133 thousand digital items were made available to
     Library’s collections and services.           users in eleven new collections or production initiatives.
                                                   More than 3.5 million digital items were made available to
                                                   users as updates or additions to existing collections or
                                                   production initiatives. The number of digital items added in
                                                   fiscal year 2009 was the largest number of files added in any
                                                   one year as LS continued its shift to large-scale digitization
                                                   initiatives such as the National Digital Newspaper Program.
                                                   The Digitizing American Imprints project digitized 5.6
                                                   million pages from more than 33 thousand General
                                                   Collections monographs. Those pages were made available
                                                   via 'handles' (persistent URLs) pointing to their display at the
                                                   Internet Archive in the Library’s Online Public Access
                                                   Catalog records.
     Maintain a high availability level for the    During fiscal year 2009, the Office of Strategic Initiatives,
     Library’s computer networks, servers,         Information Technology Services Directorate achieved 99.03
     and storage.                                  percent availability in the three target areas (network, server,
                                                   and storage availability).


Strategic Goal – Outreach: Increase awareness of the value and utility of the Library.

               Performance Targets                                        Accomplishments
     Conduct regular meetings between              During fiscal year 2009, the Librarian and/or COO met or
     Members and staffers with the Librarian       spoke with Members of Congress on more than 240
     and Chief Operating Officer (COO).            occasions.
     Increase collaborative activities with        Four universities joined the cataloging partners program,
     university libraries in various types of      bringing to eleven the number of university presses that
     cataloging and authority files.               provide cataloging in advance of publication for their own
                                                   publications under the Library’s guidance. This program
                                                   significantly strengthens the coverage of subjects such as
                                                   political science, medicine and science, agriculture, and Asian
                                                   studies.


                                                                                                                      11
                                                                              Management’s Discussion and Analysis


              Performance Targets                                      Accomplishments

                                                 Seven new members joined the Virtual International
                                                 Authority File (VIAF) project, increasing personal names in
                                                 the VIAF to 10.4 million. Researchers can now search for
                                                 names appearing in catalogs of 12 important world libraries
                                                 and the Library of Congress simultaneously using the scripts
                                                 the researchers prefer.

                                                 The Program for Cooperative Cataloging added three new
                                                 libraries, including the University of Michigan Law Library,
                                                 for subject cataloging and 29 libraries for name authorities.
                                                 The new members increase the pool of high-quality
                                                 cataloging data that can be adapted for the Library’s
                                                 collections at minimal cost.
     Sustain cost avoidances and savings for     FEDLINK saved federal libraries $16.1 million in cost
     other federal libraries through             avoidance and $4.6 million in vendor volume discounts
     FEDLINK.                                    through its many contracts with book vendors and
                                                 bibliographic utilities.



                                    Major Goals and Accomplishments

The following section presents significant annual performance targets and accomplishments for fiscal year 2009 as
they relate to the goals of the Library of Congress Strategic Plan 2008-2013. The organizational performance
targets and accomplishments that follow are listed under the applicable strategic plan goal. For each performance
target, the responsible organization is named followed by the related accomplishment(s).


Strategic Plan Goal: Content – Expand and preserve in accessible form a unified and universal body of
knowledge and creativity.

     Performance Target: Copyright Office (COP) – Increase the number of digitized pre-1978 historical records
     available online by 5 - 10 million, by September 30, 2009.

         Accomplishment: Fiscal year 2009 funding was received in February 2009. Material analysis identified
         that the digitization effort was more complex than originally estimated. Preparation and testing identified
         best methods for beginning large scale digitization planned for fiscal year 2010.

     Performance Target: Copyright Royalty Judges (CRJ) – Keep relevant regulations in 37 CFR Chapter 3
     current and appropriate to the CRJ mandate.

         Accomplishment: CRJ reviewed all 9 parts of the regulation. One part required an amendment.

     Performance Target: Congressional Research Service (CRS) – For at least 60 percent of the issues on the
     research agenda for the 1st session of the 111th Congress, CRS will draw on subject and disciplinary expertise
     from a minimum of four of its six research divisions, to ensure support for Congress that is complete,
     comprehensive, and authoritative.

         Accomplishment: In fiscal year 2009, 62 percent of issues on the CRS research agenda drew on expertise
         from at least four of the six CRS research divisions, exceeding the target of 60 percent. These
         interdisciplinary teams, in the context of broader efforts to foster collaboration among CRS experts, helped
         ensure that Congress received the full range of expertise needed to address complex policy issues.




12
                                                                            Management’s Discussion and Analysis


Performance Target: Law Library (LAW) – Maintain a current and complete collection that is reflective of
the jurisdictions of critical interest to the U.S. Congress by fully executing its acquisition plan for the fiscal
year.

    Accomplishment: LAW maintained a current and complete collection of the jurisdictions of critical
    importance to the U.S. Congress by executing 85 percent of the allocated budget to purchase needed legal
    materials. The final 15% will be expended during FY 2010.

Performance Target: LAW – Maintain a universal, multinational and multi formatted collection of legal
material of both worldwide and historical significance.

    Accomplishment: A major source of acquisition for LAW’s collections is the work of the Acquisitions
    and Bibliographic Access (ABA) Directorate of Library Services. During fiscal year 2009, LAW
    maintained very close communication with ABA with particular regard to published materials that have not
    been provided by publishers and that need to be re-requested for the collections. As a direct result of the
    close coordination, 75 percent of the re-requested material was received, making the law collection much
    more complete.

Performance Target: LAW – Expand the amount of content in the Global Legal Information Network
(GLIN), especially U.S. laws by ensuring that all laws from the current Congress and relevant executive orders
are summarized and input into GLIN within 30 days of publication by the Government Printing Office.

    Accomplishment: During the fiscal year, 1,027 summaries of U.S. laws, court decisions, and legislative
    records were entered into GLIN within the timelines specified.

Performance Target: Library Services (LS) – Acquire and make accessible American Folklife Center (AFC)
and Veterans History Project (VHP) collections. Acquire the best collections for the Library and process new
collections in a timely manner for public accessibility.

    Accomplishments: AFC acquired many new and valuable collections containing over 40,000 items for the
    Library. Highlights include the National Council for the Traditional Arts Collection documenting the best
    of traditional folk arts performers spanning 70 years; the Jean Ritchie (traditional Appalachian musician)/
    George Pickow (traditional arts cinematographer) Collection; the historic Caffe Lena Folk Coffeehouse
    Performances Collection; the 2009 Inaugural Sermons and Orations Collection documenting America's
    reactions to the inauguration of the 44th president, Barak Obama; the Fay Vincent Baseball Oral History
    Collection; and the Tom Raymond Storytelling Photo Collection.

    The StoryCorps collection of oral interviews in AFC increased to more than 20,000. The addition of the
    Griot collection of African-American narratives broadened the StoryCorps database and made it a fertile
    source of information on a much wider range of topics.

    Over 30 AFC collections were cataloged at the collection level for AFC holdings, while many others
    received Encoded Archival Description/Finding Aid treatment. AFC staff continues to make select
    collections fully available online, including the Center for Applied Linguistics Collection and the John
    Gillespie Coptic Materials Collection.

    VHP acquired over 6,000 collections from America's wartime veterans that included audio and video oral
    histories as well as thousands of individual photographs, letters, and memoirs. VHP continues to make
    these collections accessible through its web site with approximately 10 percent of it’s over 65,000
    collections digitized for online use and viewing. VHP also strengthened its standards for interviewing
    procedures and continued to process collections within 4-6 months of receipt.

Performance Target: LS – Employ strategic collecting policies that enhance current collections; develop new
collecting areas in response to changes in American and international life and culture.




                                                                                                                     13
                                                                              Management’s Discussion and Analysis


         Accomplishment: Collections and Services staff analyzed 36 collections for strengths and weaknesses to
         ascertain present and future needs of researchers. Staff identified and recommended the most effective
         acquisition strategies for developing Library collections. As a result, the research collections were
         substantially augmented in all formats.

     Performance Target: LS – Enhance preservation and accessibility of sheets (by mitigation of risks to the
     Library's collections through continuous preservation programs [mass deacidification]).

         Accomplishment: In fiscal year 2009, the Preservation Directorate mass deacidified 736,500 manuscript
         sheets with equipment installed in the Madison Building. This number represents a 26 percent decrease
         over the annual goal to treat a minimum of 1,000,000 sheets. The decrease was due to the four-month
         interruption from the renovation of the treatment lab, which was completed in September 2009. Items that
         were deacidified included congressional hearings and reports, legal publications and reference materials
         from the Law Library; comics from the Serial and Government Publications Division; and historical files of
         the NAACP from the Manuscript Division.

     Performance Target: LS – Enhance preservation and accessibility of books (by mitigation of risks to the
     Library's collections through continuous preservation programs [mass deacidification]).

         Accomplishment: In fiscal year 2009, the Preservation Directorate mass deacidified 325,800 books
         through contracted commercial deacidification. This number represents a 30 percent increase over the
         annual goal to treat a minimum of 250,000 books. Items that were deacidified included retrospective
         language and literature monographs and serials from the Asian Division, the African and Middle East
         Division, and the Collections Access, Loan and Management Division; and newly-acquired monographs
         and serials that were inspected and determined to be printed on acidic paper when the volumes were being
         processed.

     Performance Target: LS – Enhance preservation and accessibility (by mitigating risks to the Library's
     collections through continuous preservation programs [rehousing]).

         Accomplishment: In fiscal year 2009, the Preservation Directorate rehoused a total of 374,300 items.
         Items rehoused included bound volumes, unbound paper items, photographs, other formats (including
         three-dimensional artifacts such as globes), and audio visual material. Large scale projects included the
         creation of preservation rehousing to assist custodial divisions in preparing materials for transfer to Fort
         Meade. Unique projects included the creation of a special presentation box made for the Lincoln Inaugural
         Bible, used for President Obama’s inauguration in January 2009. Preservation rehousing of these items
         will ensure increased longevity, ensuring access for future generations.

     Performance Target: LS – Enhance preservation and accessibility (by mitigating risks to the Library's
     collections through continuous preservation programs [conservation treatment]).

         Accomplishment: In fiscal year 2009, the Preservation Directorate performed conservation treatment on a
         total of 34,600 items. Items treated included bound volumes, unbound paper items, photographs, and other
         formats. Notable treatments included Founding Father materials, such as the Papers of James Madison,
         Thomas Jefferson’s letters, and George Washington’s Forms of Writing and Rules of Civility.
         Conservation treatment of these items will ensure increased longevity, ensuring access for future
         generations.

     Performance Target: Office of Security and Emergency Preparedness (OSEP) – Maintain the availability of
     the Library's primary access control and intrusion detection system to ensure a secure environment for the
     Library staff, visitors, and collections.

         Accomplishment: The availability of the Library's primary access control and intrusion detection system
         to ensure a secure environment exceeded the established 99.95 availability standard.




14
                                                                               Management’s Discussion and Analysis


    Performance Target: Office of Strategic Initiatives (OSI) – Availability and Accessibility of Digital Content.
    Increase the volume of content digitized in each of the formats and the amount of content made available to the
    public.

        Accomplishment: Total cumulative volume available to the public as of September 30, 2009: 105.68
        terabytes (TB). This figure far exceeds the fiscal year 2009 performance target of 93.6 TB and represents
        an increase of over 40 terabytes in terms of data made available as of the close of fiscal year 2008.


Strategic Plan Goal: Customers – Improve our internal and external customers’ experiences in seamlessly finding
and using Library resources.

    Performance Target: COP – Improve processing times for registrations and recordations (comparing year-end
    averages) by 5 percent, by September 30, 2009.

        Accomplishment: Overall processing time approximately doubled across the year for registrations.
        Recordation time rose slightly. The number of actions on hand, however, stabilized at the end of the year.
        The office remains cautiously optimistic that this represents a change in the trend of processing time. The
        office continues to work on IT enhancements, staff training, implementation of performance requirements
        for all specialists, hiring of additional specialists, and a special project to close a large number of easily-
        cleared claims. Seventeen specialists were hired in fiscal year 2009; hiring actions for eleven more were in
        process at the end of the year.

    Performance Target: CRJ – Set royalty rates and terms that meet statutory deadlines.

        Accomplishment: All rates and terms proceedings are current.

    Performance Target: COP – Decrease processing time to 15 months (from the 2008 year-end processing time
    of 16.25 months) for standard SA-3 cable statements of account from receipt to public availability, by
    September 30, 2009.

        Accomplishment: COP (Licensing) completed 92 percent within the target 15-month time frame as of
        September 30, 2009. As a result, organizations that make royalty payments are receiving quicker responses
        regarding any errors or additional payments required and those additional royalties are more quickly
        available for eventual distribution.

    Performance Target: COP – Decrease processing time to 7 months (from the 2008 year-end processing time
    of 7.25 months) for standard SA-1-2 (short form) cable statements of account from receipt to public availability,
    by September 30, 2009.

        Accomplishment: COP (Licensing) completed 98 percent within the 7-month timeframe. As a result,
        organizations that make royalty payments are receiving quicker responses regarding any errors or
        additional payments required and those additional royalties are more quickly available for eventual
        distribution.

    Performance Target: CRS -- To ensure access to all CRS research relevant to the policy work of the Congress
    and to provide full benefit of interdisciplinary expertise, at least 85 percent of actively maintained products will
    be associated with policy issues on the CRS research agenda, assessed quarterly.

        Accomplishment: In fiscal year 2009, CRS continued implementing a successful management initiative to
        ensure that most active research products were associated with policy issues on the CRS research agenda.
        By the end of fiscal year 2009, CRS had exceeded the target, with 86 percent of active products linked to
        the agenda. Going forward, CRS will refine this target to focus only on policy research products, rather
        than all products. This ongoing work helps ensure that CRS research is directly relevant to the policy
        issues on the congressional agenda.




                                                                                                                     15
                                                                              Management’s Discussion and Analysis


     Performance Target: Integrated Support Services (ISS) -- Achieve five percent improvement over baseline
     rate for the provision of ISS facility planning and construction, and ISS operational services.

         Accomplishment: This "bundled" target was created to enable reporting via a single index figure on the
         achievement of multiple performance metrics throughout ISS. This approach was determined to have little
         relevance compared to the significance of the individual line items being measured, all of which continue to
         be tracked at the Directorate and Division level. The two targets now reported reflect priority initiatives
         within ISS as of October 1, 2008.

     Performance Target: LAW – Based on world events, create special collections of digital legal materials on
     those topics. These special collections begin to be accessible within one week of the topic being identified. To
     maintain currency, review each special collection at least every two weeks to meet or exceed minimum
     standards for visits to online special collections.

         Accomplishments: The collection of 126 Legal Blogs for 2007 and 2008 were posted on LAW’s website
         and organized by subject for use by researchers. The Abraham Lincoln digital collection of rare materials
         was created and posted on the website. The Sonia Sotomayor Supreme Court nomination collection was
         also posted on the website.

     Performance Target: LAW – Complete the classification of 800,000 volumes to Class K thus assuring that
     the entire Law Library collection is classed by country, by subject, and by form of material.

         Accomplishment: Completed the classification of 32,210 volumes into the K classification system. This
         exceeded the classification projection for fiscal year 2009 by 29 percent.

     Performance Target: LAW – Increase GLIN system usage by ten percent in fiscal year 2009 as measured by
     site visits.

         Accomplishment: GLIN system visits increased by eight percent in fiscal year 2009.

     Performance Target: LS – Provide appropriate cataloging for items selected for the Library of Congress
     collections.

         Accomplishment: In fiscal year 2009, the Acquisitions and Bibliographic Access (ABA) directorate
         cataloged approximately 317 thousand items. The processing units in the Collections and Services
         Directorate cataloged thousands of additional items. The American Folklife Center and began to integrate
         its Traditional Music and Spoken Word Catalog into the Library's general online catalog, making resources
         in traditional music and printed texts about music or music criticism retrievable in the same search.

     Performance Target: LS – Provide public training, programming, publications, and online presentations to
     Congress, researchers, scholars, educators, media representatives, policy makers, and the general public.

         Accomplishment: Partnerships and Outreach Programs (POP) divisions coordinated most of the tasks
         reflected in this target. In addition, Collections and Services provided 526 programs representing 116
         subject areas for specific audiences. AFC presented educational and cultural programs to over 50
         audiences including Congressional members and staffs, tourists, and the local community. The Folklife
         Center News, a quarterly news magazine, continued to feature the activities of the Folklife Center and
         reaches an audience of 10 thousand subscribers nationally and internationally.

     Performance Target: LS – Ensure products and services meet customer needs. Increase percentage of
     revenue from web-based products.

         Accomplishment: The Cataloging and Distribution Service (CDS) increased the percentage of total
         revenue from web-based products by five percent in fiscal year 2009. Library of Congress web-based
         products available to the national and international library community on a cost-recovery basis from CDS
         include Cataloger's Desktop, Classification Web, and the MARC Distribution Services.


16
                                                                         Management’s Discussion and Analysis



Performance Target: LS -- Improve and increase access to LC collections and services [Collections and
Services].

    Accomplishment: Almost 133 thousand digital items were made available to users in eleven new
    collections or production initiatives. Music Division led with five new collections that included about 49
    thousand digital items. One new collection, American English Dialect Recordings: The Center for Applied
    Linguistics Collection, was added to American Memory this year. More than 3.5 million digital items were
    made available to users as updates or additions to existing collections or production initiatives, including
    about three million new pages on the National Digital Newspaper Program 'Chronicling America' web site.
    The Veterans History Project added 168 thousand digital items, the Rare Books & Special Collections
    Division added 122 thousand, and Prints & Photographs Division added 76 thousand. Various LS divisions
    provided more than 3.5 million new digital items to users. During fiscal year 2009, the total number of
    digital items available publicly and for free to users for Library Services-sponsored collections and
    production initiatives grew to 18.9 million digital objects. The number of digital items added in fiscal year
    2009 was the largest number of files added in any one year (a million more than the 2.5 million digital
    objects added in fiscal year 2007, the second largest year) as LS continued its shift to large-scale
    digitization initiatives such as the National Digital Newspaper Program. In addition, the Digitizing
    American Imprints project, sponsored by the Alfred P. Sloan Foundation, digitized 5.6 million pages from
    more than 33 thousand General Collections monographs. Those pages were made available via 'handles'
    (persistent URLs) that point to display of the items at the Internet Archive in the Library’s Online Public
    Access Catalog (OPAC) records.

Performance Target: LS – Improve and increase access to LC collections and services [video collections].

    Accomplishment: In fiscal year 2009, the Packard Campus for Audio-Visual Conservation completed
    installation of the base technology allowing the Motion Picture, Broadcast, and Recorded Sound (MBRS)
    Division to dramatically improve access to the Library's video collections via an unprecedented audiovisual
    playback-on-demand model. This new system will allows MBRS to digitally encode items from the
    collection in dedicated production rooms at the Packard Campus for Audio-Visual Conservation and
    distribute them via servers and a fiber optic connection to the division's moving image reference center in
    the Madison Building on the Capitol Hill campus. Researchers there are able to control their own listening
    and viewing playback on new patron workstations in the reading room. The Packard Campus for Audio-
    Visual Conservation is currently in the process of hiring the necessary video preservation and digitization
    staff that will allow us to meet the same 7-day workflow target for these collections that we now have for
    the recorded sound collections. During the year, Packard Campus for Audio-Visual Conservation
    technology staff also began developing new automated systems for the generation of video streaming
    proxies (access copies).

Performance Target: LS – Improve and increase access to LC collections and services [recorded sound
collections].

    Accomplishment: In fiscal year 2009, the Packard Campus for Audio-Visual Conservation completed
    installation of the base technology allowing the MBRS Division to dramatically improve access to the
    Library's recorded sound collections via an unprecedented playback-on-demand model. This new system
    will allow MBRS to digitally encode items from the collection in dedicated production rooms at the
    Packard Campus for Audio-Visual Conservation and distribute them via servers and a fiber optic
    connection to the division's recorded sound reference center in the Madison Building on the Capitol Hill
    campus. Researchers there are able to control their own listening playback on new patron workstations in
    the reading room on the Capitol Hill campus. Access copies of the recorded sound material are digitized
    and made available within 7 days or less of the original patron request.

Performance Target: LS – Expand access to the Library's collections through planned projects and initiatives.

    Accomplishments: The number of OPAC and Z39.50 sessions increased by almost 1.4 million. LS staff
    implemented Automated Call Slip enabling public patrons to submit online requests for materials. Staff in


                                                                                                              17
                                                                              Management’s Discussion and Analysis


         the Technology Policy Directorate added a 'quick search' box to OPAC enabling simple, Google-like
         OPAC searches. Technology Policy staff also improved the OPAC user interface based on analysis of user
         search logs, e.g., improved 'no hits' response (with suggestions for alternatives and links to Help pages and
         other resources).

     Performance Target: LS – Provide leadership in national and international library and archives communities
     on the formulation and dissemination of standards and best practices.

         Accomplishments: ABA and the Technology Policy Directorate collaborated in FY09 to launch
         ID.LOC.GOV, a Web portal that enables software developers throughout the world to interact
         programmatically with LC-issued controlled vocabularies such as the Library of Congress Subject
         Headings and the Thesaurus for Graphic Materials. Use of ID.LOC.GOV permits large Websites to be
         queried using familiar semantic search strategies.

         ABA led in completing the content of Resource Description and Access (RDA), a proposed new
         descriptive cataloging code that can apply to both digital and tangible formats and most media. ABA
         began working with the National Library of Medicine and National Agricultural Library to design a full-
         scale operational and feasibility test of RDA to begin in January 2010.

         The Technology Policy Directorate began a maintenance role for an XML schema standard that assists with
         the translation of scanned text into character text for better searching. Tech Policy continued as the
         international maintenance agency for two search protocol standards; seven data communication formats;
         three technical metadata standards; and a data element set for preservation of digital library resources.
         Technology Policy also represented the Library in the: World Wide Web Consortium, Simple Knowledge
         Organization System, National Information Standards Organization, International Organization for
         Standardization, International Federation of Library Associations-Conference of Directors of National
         Libraries Alliance for Digital Strategies, and the Organization for the Advancement of Structured
         Information.

         These innovations improved the ease of searching for users of the Internet; reduced the cost of library data
         exchange; and promoted the creation of high-quality library data for present and future library users.

     Performance Target: National Library Service for the Blind and Physically Handicapped (NLS) – Contract
     and manufacture Digital Talking Book players.

         Accomplishment: In fiscal year 2008, NLS contracted to manufacture approximately 220,000 Digital
         Talking Book players to be delivered beginning in fiscal year 2009. In fiscal year 2009, NLS contracted
         for the production of an additional 131,000 players. The manufacture and delivery of players target was
         achieved.

     Performance Target: NLS – Produce Digital Talking Books.

         Accomplishment: In fiscal year 2009, NLS contracted to produce over 575 copies each of 2,000 new book
         titles in digital format.

     Performance Target: NLS – Continue the production of talking books on cassette media.

         Accomplishment: Contracts with producers were signed for the continued production of approximately
         2,000 talking book titles on cassette media. The new titles will be offered in both analog and digital
         formats until 2011.

     Performance Target: NLS – Produce digital retrospective titles of books on flash cartridges.




18
                                                                           Management’s Discussion and Analysis


    Accomplishment: Digital retrospective titles include analog to digital titles and born digital titles not
    previously available in digital flash cartridge format. In fiscal year 2009, approximately 14,000 digital
    retrospective titles were produced.

Performance Target: OSI – Maintain the average Page Views per Visit at, or above, five.

    Accomplishment: Overall, traffic to the Library's website showed a slight increase in fiscal year 2009. In
    addition to the primary website, LOC.GOV, American Memory, Thomas, and the Online Catalog,
    continued to have strong demand among customers. The World Digital Library had a strong debut in the
    3rd quarter of fiscal year 2009. The Library was able to meet its goal for content use per visit to the site.
    The average views per visit were 7.7 for fiscal year 2009, well above the target goal of 6 page views per
    visit.

Performance Target: OSI -- Maintain network, server, and storage availability (excluding scheduled
maintenance) at or above 99.5 percent

    Accomplishment: During fiscal year 2009, OSI’s Information Technology Services (ITS) achieved 99.03
    percent availability in the three target areas (network, server, and storage availability). During the year,
    ITS focused on refreshing technology in order to support the ever increasing requirements of our hosting
    environment. Strengthening infrastructure while consolidating resources allowed ITS to offer greater
    resource utilization.

Performance Target: OSI – Content Stewardship of National Digital Information and Infrastructure
Preservation Program (NDIIPP) Partner Institutions: increase the volume of content for various types of digital
formats and the amount of content made available to Congress.

    Accomplishment: NDIIPP leveraged the growth of public and private stewardship networks to collect,
    preserve, and make available significant digital content. By the close of fiscal year 2009, 265 terabytes of
    digital content were collected and preserved by the Library and its partners. By the close of FY2009, 265
    terabytes of digital content were collected and preserved by the Library and its partners. Of this amount,
    119 terabytes were made accessible.

Performance Target: OSI – Growth of Teaching with Primary Sources (TPS) Programs: increase the number
of Congressional Districts served from 45 in fiscal year 2008 to 80 in fiscal year 2009.

    Accomplishment: Through TPS, OSI continued to lead and expand the educational outreach network to
    increase educational use of the Library’s unparalleled online primary sources.

    In fiscal year 2009, Library staff delivered professional development to teachers from 57 Congressional
    Districts. TPS Educational Consortium members and regional program coordinators, who serve
    educational communities in 31 states, reached teachers in 98 Congressional Districts. Library staff
    conducted 51 institutes, workshops, and presentations for 1,539 teachers held at the Library and 50
    professional development events for 2,623 teachers in outside venues. TPS partners conducted 468
    professional development events for 8,416 teachers focused on using the Library’s digitized primary
    sources to create instruction that builds student literacy, content knowledge, and critical thinking skills.

Performance Target: OSI -- Teaching with Primary Sources Outreach. Increase the number of workshops
and presentations held (to 400) and teachers served (to 4500) in fiscal year 2009.

    Accomplishment: Library staff conducted 101 institutes, workshops, and presentations for 4,162 teachers
    held at the Library and in outside venues. TPS partners conducted 468 professional development events for
    8,416 teachers focused on using the Library’s digitized primary sources to create instruction that builds
    students literacy, content knowledge, and critical thinking skills.




                                                                                                                   19
                                                                              Management’s Discussion and Analysis



Strategic Plan Goal: Outreach– increase awareness of the value and utility of the Library.

     Performance Target: Office of the Librarian (LIBN/O) -- Facilitate at least two monthly meetings between
     Members of Congress and the Librarian and/or the Chief Operating Officer (COO) when Congress is in session.

         Accomplishment: During fiscal year 2009, the Librarian and/or COO met or spoke with Members of
         Congress on more than 240 occasions.

     Performance Target: LIBN/O – Provide news releases at least three weeks in advance of events.

         Accomplishment: The Public Affairs Office surveyed several weeks' worth of press releases and
         determined a success rate of 75 percent in meeting the three-week deadline resulting in extended publicity
         and increased event attendance.

     Performance Target: LS – Increase collaborative activity with university libraries, including projects in:
     Electronic Cataloging in Publication (ECIP), Dewey Decimal Classification, and authority files.

         Accomplishment: Brigham Young University, Duke University, the University of Chicago, and the
         University of Hawaii joined the ECIP Cataloging Partners program, bringing to eleven the number of
         university presses that provide cataloging in advance of publication for their own publications under the
         Library’s guidance. The ECIP cataloging partners significantly strengthen the program's coverage of
         subjects such as political science, medicine and science, agriculture, and Asian studies.

         ABA used "auto-Dewey" software to assign Dewey numbers automatically to American and foreign
         literary works.

         Seven new members joined the Virtual International Authority file project, increasing the number of
         personal names in the VIAF to 10.4 million. Researchers can now search for names that appear in catalogs
         of the Bibliotheca Alexandrina, the national libraries of Czech Republic, Israel, Portugal, Spain, Sweden,
         and the Vatican, and the earlier members (Australia, France, Germany, the Getty Institute, Italy, and the
         Library of Congress) simultaneously using the scripts they prefer.

         The Program for Cooperative Cataloging added three new libraries, including the University of Michigan
         Law Library, for subject cataloging and 29 libraries for name authorities. The new members increase the
         pool of high-quality cataloging data that can be adapted for the Library’s collections at minimal cost.

     Performance Target: LS – Sustain cost avoidance savings of $15 million or more to federal libraries and
     information centers in their procurement of library-related information services and training.

         Accomplishment: FEDLINK saved federal libraries $16.1 million in cost avoidance and $4.6 million in
         vendor volume discounts through its many contracts with book vendors and bibliographic utilities.

     Performance Target: LS – Increase awareness of Library collections and services through a wide variety of
     activities that increase the reach of the Library and its collections.

         Accomplishment: LS regularly scheduled and conducted researcher orientation sessions the public and
         Congressional staff, LS also provided tours through: the Visitor Services Office, individual area studies,
         special collections, and general collections reading rooms. LS also provided curatorial/collection based
         public programming.




20
                                                                             Management’s Discussion and Analysis


Strategic Plan Goal: Organization – increase Library-wide synergies and flexibilities to continuously improve
quality and efficiency of delivery of products and services.

    Performance Target: Human Resources Services (HRS) – Increase the number of Library staff receiving
    education related to a broad variety of personal financial management, benefits management, and retirement
    opportunities to 1,810 by September 30, 2009.

        Accomplishments: 1451 employees (new hires, mid-career, and those within five years of possible
        retirement) received educational information on retirement planning including financial, transitional, legal,
        healthy living, federal retirement benefits, and social security and medical issues by key experts from the
        federal sector and private organizations.

    Performance Target: LS – Complete and begin implementation of the LS strategic plan.

        Accomplishments: In fiscal year 2009, Library Services mapped all resources, including spending plans
        and current staff, to its strategic plan. In addition, targets were set for the use of these resources and
        tracked during the year.

    Performance Target: LS – Reduce operating costs.

        Accomplishments: LS reorganized the Office of Business Enterprises in fiscal year 2009, providing a
        foundation for the efficient and effective operation of LS’s cost-recovery programs in future years.

Strategic Plan Goal: Workforce – Cultivate a talented diverse community of innovators devoted to public service.

    Performance Target: HRS – Develop 287 of the Library's supervisors through the Supervisor Development
    Program by September 30, 2009 in support of the Library's Succession Plan

        Accomplishments: The targeted number of supervisors was not met because funding was not received
        until February, 2009. Also budget constraints precluded service units from supporting the training event.
        As a result, 59 supervisors were provided five days of practical skills and tools to perform their duties
        successfully. The training included effective ways to communicate with staff, enhance employees’
        professional growth and development, use a performance management system, and understand the human
        side of change.
    Performance Target: LS – Increase the number of classes taken by Library Services staff.

        Accomplishments: A total of 672 LS staff members took nearly 2,000 classes taught within the service
        unit and an additional 3,377 classes taught by the Library's Center for Learning and Development. These
        classes ensured the staff can serve Library users by employing up-to-date skills in acquisitions, digital
        reference, cataloging, Web design, and other 21st-century library functions as well as understanding of
        agency information technology security, writing, and personal productivity skills.




                                                                                                                   21
                                                                              Management’s Discussion and Analysis



           Management Control Program, Systems, Controls and Legal Compliance

The Library has a management control program (MCP) that requires annual risk (vulnerability) assessments and
periodic detailed reviews of internal controls based on the results of the vulnerability assessments. The MCP is
designed to ensure that: (1) obligations and costs comply with applicable law; (2) assets are safeguarded against
waste, loss, unauthorized use or misappropriation; (3) revenues and expenditures are properly accounted; and (4)
program activities are carried out in the most efficient, effective, and economical manner possible.

During fiscal year 2009, Library staff performed vulnerability assessments on all of the identified financial and non-
financial modules and assigned, based on an established scoring system, a high, medium or low risk to the modules.
Then, based on risk and scheduling, Library staff performed 36 detailed control reviews in fiscal year 2009 to
examine the controls in place in the selected modules. Plans to correct any deficiencies in controls were derived
based on the examination results and will be tracked at an agency level by program officials until the deficiencies
are resolved.

The implementation and regular testing of controls allows for Library management to assert that these controls
provide reasonable assurance that the foregoing objectives are met. This testing is performed on the central
financial and reporting systems, along with the subsidiary and program systems and the external financial interfaces
used by the Library. The Library has continued to enhance the central financial system that was implemented in
2004 to improve controls, reduce paper-based transactions, and decrease the number of program and subsidiary
systems.


                                 Limitations of the Financial Statements
The Library's financial statements are the culmination of a systematic accounting process. The statements have been
prepared to report the financial position and results of operations of the Library of Congress, pursuant to the
hierarchy of accounting principles and standards set forth in Note 1 to the Financial Statements. While these
statements have been prepared from the books and records of the Library, they are in addition to the financial reports
used to monitor and control budgetary resources that are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S. Government, a sovereign entity. One
implication of this is that liabilities cannot be liquidated without legislation that provides resources to do so.




22
                                                                                    Consolidated Financial Statements

                           THE LIBRARY OF CONGRESS
                                  Consolidated Balance Sheets
                                     As of September 30, 2009 and 2008

                                                                                      (in thousands)
                                                                                FY 2009           FY 2008
ASSETS
     Intragovernmental:
         Fund Balance with Treasury (Note 2)                                $        350,419    $     326,548
         Investments (Note 4)                                                         42,486        1,246,271
         Accounts Receivable, Net (Note 5.A)                                          12,100            8,218
         Other Intragovernmental Assets                                                  225              723
     Total Intragovernmental                                                         405,230        1,581,760

     Cash and Other Monetary Assets (Note 1.G)                                           104              278
     Pledges Receivable – Donations (Note 5.B)                                        14,759           10,724
     Investments (Note 4)                                                             78,848           76,688
     Inventory and Operating Materials (Note 1.K)                                      1,042              854
     Property and Equipment, Net (Note 6)                                             69,138           67,556
     Other Assets                                                                        529              675

    Library Collections (Note 1.M)
TOTAL ASSETS                                                                $        569,650    $   1,738,535

LIABILITIES
     Intragovernmental:
         Accounts Payable and Accrued Funded Payroll, Benefits              $          5,966    $       4,445
         Advances from Others                                                         40,019           31,411
         Accrued Unfunded Workers’ Compensation (Note 9)                               1,657            1,555
         Other Intragovernmental Liabilities (Note 11)                                    61               10
     Total Intragovernmental                                                          47,703           37,421

     Accounts Payable and Accrued Funded Payroll, Benefits                            65,108           62,370
     Custodial Liability (Note 3)                                                          0        1,193,780
     Deposit Account Liability                                                         6,845            7,041
     Accrued Unfunded Annual and Compensatory Leave                                   25,605           23,530
     Actuarial Unfunded Workers’ Compensation (Note 9)                                 6,743            7,611
     Other Liabilities (Note 11)                                                       2,795            5,526
     TOTAL LIABILITIES                                                      $        154,799    $   1,337,279

     Commitments and Contingencies (Note 10)

NET POSITION
     Unexpended Appropriations – All Other Funds                            $        207,157    $     195,373
     Cumulative Results of Operations – Earmarked Funds (Note 18)                    173,519          177,318
     Cumulative Results of Operations – All Other Funds                               34,175           28,565
     TOTAL NET POSITION                                                     $        414,851    $     401,256

TOTAL LIABILITIES AND NET POSITION                                          $        569,650    $   1,738,535


                   The accompanying notes are an integral part of these financial statements.

                                                                                                                  23
Consolidated Financial Statements

                                    THE LIBRARY OF CONGRESS
                                    Consolidated Statements of Net Costs
                                      For the Years Ended September 30, 2009 and 2008

                                                                                                 (in thousands)
                                                                                             FY 2009        FY 2008
        NET COSTS BY PROGRAM AREA
           National Library:
              Program Costs                                                              $      461,909    $   429,916
              Less: Earned Revenue                                                               (4,191)        (4,227)
              Net Program Costs                                                                 457,718        425,689

            Law Library:
               Program Costs                                                                     24,986         23,453
               Less: Earned Revenue                                                                (20)             (3)
               Net Program Costs                                                                 24,966         23,450

            Copyright Office:
               Program Costs                                                                      73,886         53,681
               Less: Earned Revenue                                                             (30,033)       (32,829)
               Net Program Costs                                                                  43,853         20,852

            Congressional Research Service:
               Program Costs                                                                    139,411        129,199
               Less: Earned Revenue                                                                  (3)            (3)
               Net Program Costs                                                                139,408        129,196

            National Library Service for the Blind and Physically Handicapped:
               Program Costs                                                                     52,032         45,478
               Less: Earned Revenue                                                                  (4)            (3)
               Net Program Costs                                                                 52,028         45,475

            Revolving and Reimbursable Funds:
               Program Costs                                                                     101,920         97,644
               Less: Earned Revenue                                                             (83,446)       (78,836)
               Net Program Costs                                                                  18,474         18,808

        NET COSTS OF OPERATIONS                                                          $     736,447     $   663,470




                          The accompanying notes are an integral part of these financial statements.

24
                                                                                              Consolidated Financial Statements


                                   THE LIBRARY OF CONGRESS
                        Consolidated Statements of Changes in Net Position
                                         For the Years Ended September 30, 2009 and 2008

                                                               FY 2009                                  FY 2008
                                                Earmarked     All Other     Consolidated Earmarked     All Other     Consolidated
                                                  Funds        Funds           Total       Funds        Funds           Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                $177,318      $28,565        $205,883     $191,713     $26,709        $218,422

Budgetary Financing Sources:
   Appropriations Used                                          588,400         588,400                  546,447          546,447
   Non-exchange Revenue                                584                          584        1,605          (1)           1,604
   Donations of Cash or Securities                  15,537                       15,537       19,856                       19,856
   Transfers In/(Out) Without
                                                       212         (131)              81       (375)        (785)         (1,160)
       Reimbursement
   Other                                               232                           232       1,361                        1,361
Other Financing Sources (Non-exchange):
   Donations of Property and Services                  569       43,456          44,025        3,806       21,731          25,537
   Transfers – in/out without Reimbursement                                                  (4,283)        4,283               0
   Imputed Financing                                  3,231      88,835           92,066       3,803       77,468          81,271
   Other                                            (2,667)                       (2,667)   (23,985)                     (23,985)
Total Financing Sources                              17,698      720,560         738,258       1,788      649,143         650,931
Net Cost of Operations                             (21,497)    (714,950)       (736,447)    (16,183)    (647,287)       (663,470)
Net Change                                          (3,799)        5,610            1,811   (14,395)        1,856        (12,539)

CUMULATIVE RESULTS OF OPERATIONS                  $173,519      $34,175        $207,694     $177,318     $28,565        $205,883

UNEXPENDED APPROPRIATIONS
Beginning Balances                                      $0     $195,373        $195,373          $0     $184,520        $184,520

Budgetary Financing Sources:
   Appropriations Received                                       607,096         607,096                  564,460         564,460
   Appropriations Transferred In/(Out)                            (1,851)         (1,851)                    (748)           (748)
   Other Adjustments                                              (5,061)         (5,061)                  (6,412)         (6,412)
   Appropriations Used                                         (588,400)       (588,400)                (546,447)       (546,447)
Total Budgetary Financing Sources                        0        11,784           11,784         0        10,853          10,853

TOTAL UNEXPENDED APPROPRIATIONS                          0      207,157         207,157           0      195,373          195,373

NET POSITION                                      $173,519     $241,332        $414,851     $177,318    $223,938        $401,256




                          The accompanying notes are an integral part of these financial statements.


                                                                                                                                     25
Consolidated Financial Statements

                                       THE LIBRARY OF CONGRESS
                                 Combined Statements of Budgetary Resources
                                          For the Years Ended September 30, 2009 and 2008

                                                                                                      (in thousands)
                                                                                            FY 2009                 FY 2008
     BUDGETARY RESOURCES
        Unobligated Balance, Brought Forward, October 1                                $         1,273,622     $        1,238,164
        Recoveries of Prior-year Unpaid Obligations                                                 21,650                 19,330
        Budget Authority:
            Appropriation                                                                          893,416               860,370
            Spending Authority from Offsetting Collections:
                Earned:
                     Collected                                                                     132,523               129,391
                     Change in Receivables from Federal Sources                                        179                 (814)
                Change in Unfilled Customer Orders:
                     Advances Received                                                                2,939                  2,472
                     Without Advances from Federal Sources                                            3,726                (1,340)
        Total Budget Authority                                                                   1,032,783                990,079
        Nonexpenditure Transfers, Net                                                               (1,851)                  (748)
        Temporarily Not Available Pursuant to Public Law                                                  0                      0
        Permanently Not Available                                                                   (5,090)                (7,047)
     TOTAL BUDGETARY RESOURCES                                                         $         2,321,114     $        2,239,778

     STATUS OF BUDGETARY RESOURCES
         Obligations Incurred:
             Direct                                                                    $           892,330     $          824,395
             Reimbursable                                                                          137,784                141,761
         Total Obligations Incurred                                                              1,030,114                966,156
         Unobligated Balance – Exempt from Apportionment                                         1,276,668              1,260,793
         Unobligated Balance – Not Available                                                        14,332                 12,829
     TOTAL STATUS OF BUDGETARY RESOURCES                                               $         2,321,114     $        2,239,778

     CHANGE IN OBLIGATED BALANCE
        Unpaid Obligated Balance, Net, Brought Forward, October 1:
            Unpaid Obligations, Brought Forward                                        $            281,300    $          240,415
            Less: Uncollected Customer Payments, Brought Forward                                     (8,587)             (10,741)
        Total Unpaid Obligation Balance, Net                                                        272,713               229,674
        Obligations Incurred, net                                                                 1,030,114               966,156
        Less: Gross Outlays                                                                     (1,011,751)             (905,941)
        Less: Recoveries of Prior-Year Unpaid Obligations                                          (21,650)              (19,330)
        Change in Uncollected Customer Payments from Federal Sources                                 (3,905)                2,154
        Unpaid Obligated Balance, Net, End of Period:
            Unpaid Obligations                                                                     278,013               281,300
            Less: Uncollected Customer Payments from Federal Sources                               (12,492)               (8,587)
     TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                                $           265,521     $         272,713

     NET OUTLAYS
         Gross Outlays                                                                 $         1,011,751     $          905,941
         Less: Offsetting Collections                                                            (135,462)              (131,864)
         Less: Distributed Offsetting Receipts                                                      (6,404)              (29,153)
     NET OUTLAYS                                                                  $                869,885
                                                                                                       $                  744,924
            (The Library has no Non-Budgetary Credit Program Financing Accounts; all amounts above are Budgetary.)

                              The accompanying notes are an integral part of these financial statements.



26
                                                                       Notes to the Consolidated Financial Statements


    NOTE 1              SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Reporting Entity

The Library of Congress (the Library), a legislative branch agency of the U.S. government, was established in 1800
primarily to provide information and policy analyses to the members and committees of the U.S. Congress. Since
then, the Library has been assigned other major missions such as administering the U.S. copyright laws, providing
cataloging records to the nation's libraries, and coordinating a national program to provide reading material for blind
and physically handicapped residents of the U.S. and its territories and U.S. citizens residing abroad. The Library
also provides services to other federal agencies and administers various gift funds and funds accepted and controlled
by the Library of Congress Trust Fund Board (TFB).

The Library's programs and operations are subject to oversight by the Joint Committee on the Library, the oldest
joint committee of the Congress, which is comprised of members of the U.S. House of Representatives and Senate.
The Library relies primarily on appropriated funds to support its programs and operations. Budget requests are
subject to review by the House and Senate Appropriations Subcommittees on Legislative Branch Appropriations.
The Library also receives funds from other agencies for services provided under the Economy Act and other
statutes. In addition, the Library administers several fee-for-service revolving funds and receives donations from the
public, which are classified as gifts or funds accepted and controlled by the TFB, which consists of the Librarian of
Congress (who is Chairman and Secretary of the TFB), the Chairman and Vice-Chairman of the Joint Committee on
the Library, the Secretary of the Treasury (or an assistant secretary designated in writing by the Secretary of the
Treasury), and ten additional members appointed by the President (two), the U.S. House of Representatives (four),
and the U.S. Senate (four).

Entity activities are those for which the Library has the authority to use the assets. Non-entity activities consist
primarily of deposit accounts that are not available for use by the Library.


B. Basis of Presentation
The accompanying financial statements report the financial position, net costs, changes in net position, budgetary
resources of the Library for fiscal years 2009 and 2008. These consolidated and combined financial statements
include the accounts of all funds under the Library's control, which have been established and maintained to account
for the resources of the Library. They were prepared from the Library's financial management system in accordance
with Generally Accepted Accounting Principles (GAAP).

Fiduciary assets are not assets of the Library of Congress and beginning in fiscal year 2009 are not recognized on
the Balance Sheet, Statement of Net Cost, or Statement of Net Position. See Note 1.R, Accounting Changes and
Note 21, Fiduciary Activities.

Material intra-Library transactions and balances have been eliminated from the Consolidated Balance Sheets, the
Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position. The Statement
of Budgetary Resources is presented on a combined basis; therefore, intra-Library transactions and balances have
not been eliminated from this statement.

As a legislative branch agency, the Library is not required to follow the executive agency accounting principles
established by the Comptroller General under 31 U.S.C. 3511 or the standards developed by the Federal Accounting
Standards Advisory Board (FASAB). However, the Library maintains its fund balances with the Department of the
Treasury and submits information required to incorporate its financial and budgetary data into the overall federal
government structure. For purposes of financial management and reporting, the Library has issued a regulation
(LCR 1510), which adopts the federal standards for financial reporting and internal controls in a manner consistent
with a legislative agency. The Library has not adopted the Federal Financial Management Improvement Act of
1996, the Federal Managers Financial Integrity Act and the Government Performance and Results Act, as these
standards are not applicable to the Library. However, the Library uses these sources as guidance and reference in its
operations.



                                                                                                                          27
Notes to the Consolidated Financial Statements



     The statements include 4 (4) appropriated fund accounts; 26 (26) revolving (and gift revolving) funds; 23 (23)
     reimbursable funds; 105 (104) TFB funds; and 134 (134) gift funds for fiscal year 2009 (and 2008, respectively).

     C. Basis of Accounting

     The Library’s financial statements conform to accounting principles generally accepted in the United States of
     America as promulgated by the Federal Accounting Standards Advisory Board (FASAB). The American Institute
     of Certified Public Accountants recognizes FASAB Standards as generally accepted accounting principles for
     federal reporting entities.

     The statements were also prepared based on guidance published in the Office of Management and Budget (OMB)
     Circular No. A-136, Financial Reporting Requirements. The Library is not required to adopt this circular, and
     accordingly has elected to use the disclosures management deems necessary for the fair presentation of financial
     statement information.

     The accounting structure of the Library is designed to reflect both accrual and budgetary accounting. Under the
     accrual method, revenues are recognized when earned and expenses are recognized when a liability is incurred,
     without regard to receipt or payment of cash. The budgetary accounting, on the other hand, is designed to recognize
     the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-
     based transaction. The budgetary accounting facilitates compliance with legal constraints on and controls over the
     use of federal funds.

     The preparation of financial statements in conformity with GAAP requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and
     liabilities at the date of the financial statements and the reported amounts of revenues and expenses during the
     reporting period. Actual results could differ from these estimates.

     D. Revenues and Other Financing Sources

     Appropriations

     The Library receives the majority of its funding to support its programs through four appropriations that include
     both annual and no-year funding. The appropriated funds may be used, within statutory limits, for operating and
     capital expenditures including equipment, furniture and furnishings. Appropriations are recognized as revenues at
     the time they are expended. The four appropriations for fiscal year 2009 are:

         •    Library of Congress, Salaries and Expenses (annual and no-year)
         •    Copyright Office, Salaries and Expenses (annual and no-year)
         •    Congressional Research Service, Salaries and Expenses (annual)
         •    National Library Service for the Blind and Physically Handicapped, Salaries and Expenses (annual and no-
              year)

     Earned Revenues

     Additional amounts are obtained through reimbursements from services performed for other federal agencies as
     authorized by the Economy Act and the Library's annual appropriations legislation. In addition, the Library operates
     several self-sustaining revolving funds that generate revenues from the sale of various products and services to the
     public and federal customers. Revolving and reimbursable fund revenue is recognized when goods have been
     delivered or services rendered.

     Under the authority of 2 U.S.C. 182, the Cooperative Acquisitions Revolving Fund was established on October 1,
     1997, and is the program under which the Library acquires foreign publications and research materials on behalf of
     participating institutions on a cost-recovery basis (over time). 2 U.S.C. 182 was amended for the establishment of
     revolving funds for Audio and Video Duplication, Gift Shop Operations, Decimal Classification, Document
     Reproduction and Microfilm Services, Special Events, FEDLINK and Federal Research Program.


28
                                                                     Notes to the Consolidated Financial Statements



    •   The Audio and Video Duplication fund provides audio and video duplication and delivery services which
        are associated with the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
    • The Decimal Classification fund performs decimal classification development.
    • The Gift Shop fund operates a gift shop and other sales of items associated with collections, exhibits,
        performances, and special events at the Library.
    • The Document Reproduction and Microfilm Services fund provides document reproduction and
        microfilming services.
    • The Special Events fund performs services related to the hosting of special events and programs by the
        Librarian in Library facilities.
    • The FEDLINK program is the program of the Library under which procurement of publications and library
        support services, along with related accounting, education and support services are provided to Federal
        Government or District of Columbia entities.
    • The Federal Research Program provides research reports, translations and analytical studies for Federal
        Government or District of Columbia entities.
The revolving funds report, but are not required to recover, unreimbursed inter-entity costs (imputed costs).

Imputed Financing Sources

In accordance with FASAB’s Statement of Federal Financial Accounting Standards (SFFAS) No. 30, “Inter-Entity
Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts”, the Library has
recorded expenses for the material unreimbursed full costs of goods and services that it receives from other
legislative branch agencies (i.e., the Architect of the Capitol and the Government Printing Office) and executive
branch agencies (i.e., the Office of Personnel Management (OPM) and the Department of the Treasury) for fiscal
years 2009 and 2008. Since these costs are not actually paid to the other agencies, an imputed financing source is
recorded to offset these costs that are financed by the other Federal agencies.

Donation and Interest Revenue

The Library receives monetary gifts from donors and receives interest on invested funds. The Library also received
gifts of donated property or services during fiscal years 2009 and 2008. The Library records these in-kind
donations as donated revenue in the period earned and an offsetting expense in the same period. The Ad Council
provided nearly all of the in-kind donations in the form of free advertising for America’s Library web site. Several
vendors provided in-kind donations for the Library’s annual book festivals and several other meetings. Finally, the
Ira and Leonore Gershwin Trust Fund and Related Charitable Trust provided in-kind materials and services to the
Library.

Deferred Credits

The Library received gifts subject to certain conditions being met. These are not considered earned until the
conditions are met, and are recorded as deferred credits until earned.

E. Gift and TFB Funds

The Library administered gift and TFB funds with combined asset value of approximately $145.3 million and
$150.2 million during fiscal years 2009 and 2008, respectively. Funds are restricted as to their use, which must be
in accordance with the terms of the gift agreement. In general, TFB funds are either temporarily restricted (principal
may be spent) or permanently restricted (principal may not be spent). Additional restrictions may be imposed on
TFB funds by the terms of an agreement or donor's will. Library fund managers administer and oversee the gift and
TFB funds to ensure they are used as directed by the donors and in accordance with Library policy.




                                                                                                                         29
Notes to the Consolidated Financial Statements


     F. Fund Balance with Treasury

     The amount shown as Fund Balance with Treasury represents the balances of the appropriated, reimbursable, gift
     and TFB funds, revolving, deposit (and for fiscal year 2008, custodial funds, see Note 1.R) that are on deposit with
     the U.S. Treasury.

     G. Cash and Other Monetary Assets

     Cash and other monetary assets are defined as all cash not held by the U.S. Treasury. This category includes
     deposits in transit, cash on hand and imprest funds.

     The Library receives and utilizes foreign currencies in carrying out operations abroad as it conducts business
     through six overseas offices. Foreign currency balances at year-end are immaterial to the financial statements.

     H. Investments (Net)

     Gift and TFB Funds - The TFB determines the investment policy for the Library's gift and TFB funds. The policy
     provides three options for investment of TFB funds:

         •    A permanent loan with the U.S. Treasury

         •    A pool of U.S. Treasury market-based securities

         •    A private investment pool consisting of the following stock, index and money market funds utilized during
              fiscal year 2009 and 2008:

              •   Vanguard Institutional Index Fund
              •   Vanguard Capital Opportunity Fund
              •   Fidelity Blue Chip Growth Fund
              •   Fidelity Capitol Appreciation Fund
              •   Fidelity Growth Company Fund
              •   Fidelity Dividend Growth Fund

     The policy for gift funds allows only for investment in U.S. Treasury market-based securities.

     Under 2 U.S.C. 158, up to $10 million of the Library's gift and TFB funds may be invested with the U.S. Treasury as
     a permanent loan at a floating rate of interest, adjusted monthly, but no less than four percent per annum. The
     permanent loan is an interest bearing investment recorded at cost, which is market value.

     Treasury securities are intended to be held to maturity, are valued at cost, and are adjusted for the amortization of
     discounts and premiums. Interest is computed using the straight-line method, which approximates the effective
     interest method.

     Stock and money market funds are stated at current market value and are considered available for sale. Unrealized
     gains and losses are recognized and recorded as a component of non-exchange revenue in the statement of changes
     in net position.

     All gift and TFB fund investments are obtained and held by the gift and TFB funds under conditions set forth in the
     respective gift and TFB instruments.

     Deposit Funds - Pursuant to Public Law 105-80, funds deposited by copyright applicants are invested, based on the
     unearned balance available, by the Copyright Office in U.S. Treasury securities. Treasury securities are intended to
     be held to maturity, are valued at cost and are adjusted for the amortization of discounts and premiums. Interest is
     computed using the straight-line method, which approximates the effective interest method. These investments will
     be held until the deposit fees are earned and income accrues to the benefit of the Copyright Office.



30
                                                                       Notes to the Consolidated Financial Statements



I. Accounts Receivable

Accounts receivable primarily resulted from billings to other federal agencies under reimbursable interagency
agreements for database retrieval and other library services. The Library has established an allowance for doubtful
accounts against accounts receivable due from non-federal customers, based on past collection experience. The
Library does not record allowance for doubtful accounts for intragovernmental accounts receivable in accordance
with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which cites that “losses on receivables should
be recognized when it is more likely than not that the receivable will not be totally collected.” Intragovernmental
receivables are likely to be totally collected.

J. Pledges Receivable

Contributions of unconditional promises to give (pledges) to the Library and the Library of Congress TFB are
recognized as donated revenue in the period the pledge is received. They are recorded at their estimated present
value using a market-based discount rate. Accretion of the discount in subsequent years is also recorded as donated
revenue. Substantially all of the Library's pledges are from major corporations or donors. The Library regularly
monitors the status of all pledges and adjusts accordingly; therefore no allowance for uncollectible pledges has been
established.

K. Inventory and Related Property

The Library's inventories are primarily comprised of bibliographic products that will be consumed in future
operations; materials used to reproduce printed materials; sound recordings for both internal and external sales; and
sales shop merchandise for resale. Sales shop merchandise is valued at cost or market, whichever is lower. The
recorded values of inventory and operating materials are adjusted for the results of periodic physical counts.

L. Property and Equipment
For fiscal years prior to 1998, the Library capitalized furniture and equipment at cost if the initial acquisition cost
was $10,000 or more. Starting in fiscal year 1998, the Library capitalizes furniture and equipment at cost if the
initial acquisition cost is $25,000 or more. Depreciation is computed on a straight-line basis using estimated useful
lives.

Property and equipment accounts are maintained in three categories of funds: Appropriated, Reimbursable and
Revolving. The appropriated fund category includes all property and equipment used by the Library for general
operations. Property and equipment purchased by the Integrated Support Services Administrative Working Fund are
recorded in the reimbursable funds. Property and equipment purchased by FEDLINK, the Federal Research
Program, Document Reproduction and Microfilm Service, Audio Visual Services, and the Cooperative Acquisitions
Program are recorded in the revolving funds.

The Library occasionally acquires property and equipment by direct gift or by purchase from funds donated for a
specific purpose or project. Because property is generally not restricted for use to gift and trust activities, property
accounts are not maintained in the gift and TFB funds. Capitalized property and equipment acquired through gifts
are recognized as donated revenue in the gift and TFB funds and transferred to the Library's appropriated fund, once
the costs are complete and the property is placed in service. The Library records the donated property and
equipment at its fair market value at the time of the gift.

Operating equipment is amortized over a 3 to 20-year period. Software includes ADP software purchased from
outside vendors and software defined as “internal use software” in accordance with SFFAS No. 10, “Accounting for
Internal Use Software.” All software recorded has an estimated useful life of three years or more and a value of at
least $10,000 per item acquired in fiscal years 1997 and prior or at least $100,000 per item acquired in fiscal years
after 1998.

Leased equipment meeting the criteria for capitalization in accordance with Statements of Federal Financial
Accounting Standards is included in property and equipment.



                                                                                                                           31
Notes to the Consolidated Financial Statements



     Land and buildings are excluded from the Library's property and equipment accounts because they are under the
     custody and control of the Architect of the Capitol. This arrangement encompasses four Capitol Hill buildings (the
     Thomas Jefferson, James Madison, John Adams Buildings, and the Special Facilities Center), a secondary storage
     facility at Fort Meade, Maryland, and the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
     The Architect receives an appropriation from Congress to fund maintenance, care and operations of the Library’s
     buildings and grounds. Costs associated with the acquisition and maintenance of these buildings is accounted for by
     the Architect. However, the Library has recorded the inter-entity cost and related imputed financing source in its
     books. The Library does capitalize and depreciate leasehold improvements to its facilities as long as the
     improvements were made using the Library’s funding sources and the acquisition cost is at least $100,000.

     M. Library Collections
     The Library classifies its collections as Heritage Assets, that is, assets with historical, cultural, educational, artistic
     or natural significance. The Library’s mission is to make its resources available and useful to the Congress and the
     American people and to sustain and preserve a universal collection of knowledge and creativity for future
     generations.

     The Library’s collection development policies are designed to fulfill its responsibilities to serve (1) the Congress and
     United States government as a whole, (2) the scholarly and library community, and (3) the general public. Written
     collection policy statements ensure that the Library makes every effort to possess all books and library materials
     necessary to the Congress and various offices of the United States government to perform their duties; a
     comprehensive record, in all formats, documenting the life and achievement of the American people; and a universal
     collection of human knowledge embodying, primarily in print form, the records of other societies, past and present.

     Copyright deposits are a major source of the Library’s collections of Americana. The Library also acquires materials
     by purchase, transfer from other federal agencies, gift, domestic and international exchange, or by provisions of state
     and federal law. Many of these materials are foreign publications. Various preservation methods are used to
     maintain the collections, and disposals occur only for the exchange and gift of unwanted or duplicate copies. As of
     September 30, 2009 and 2008 the Library has 92 and 91 collections managed by its custodial units.

     The cost of acquiring additions to the collections is expensed, when incurred, in the statement of net cost. (See note
     13.) Supplemental information regarding the condition and preservation of the collections is included with the
     Management Assertion on the collections.

     N. Liabilities

     Liabilities represent the amounts that are likely to be paid by the Library as a result of transactions that have already
     occurred. Liabilities for which an appropriation has not been enacted, or which are the results of deposit account
     activities, are classified as liabilities not covered by budgetary resources. For accrued unfunded annual leave,
     compensatory time earned, workers' compensation and capital lease liabilities, it is not certain that appropriations
     will be enacted to fund these amounts.

         Advances from Others are funds received for the revolving programs that have not yet been earned.

         Custodial and Deposit Liabilities are customer funds on deposit for Copyright, Document Reproduction and
         Microfilm Services, and Cataloging Distribution Service products and services. (For fiscal year 2008, this
         category also includes the custodial funds for Copyright royalties, see Note 1.R).

         Accrued Annual and Compensatory Leave - The Library's basic leave policy is contained in Title 5, U.S.C.; the
         Uniform Annual and Sick Leave Regulations of the Office of Personnel Management; and the decisions of the
         Comptroller General. Generally, each employee may carry forward a maximum of 240 hours of annual leave
         per calendar year. Annual leave is accrued as it is earned and the liability is adjusted at the end of each fiscal
         year based on annual leave earned and taken. Annual leave earned in excess of the maximum permitted
         carryover is forfeited. Each year, the balance in the accrued annual leave account is also adjusted to reflect
         current pay rates.



32
                                                                         Notes to the Consolidated Financial Statements



    Employees' compensatory time earned but not taken is also accrued at year-end. An employee may accumulate
    a maximum of 40 hours of compensatory time during the fiscal year. Beginning with the 2008 leave year,
    compensatory leave earned will remain on the employee’s leave record for use up to a maximum of 26 pay
    periods from the pay period in which it was earned. Any compensatory leave not used beyond the 26 pay
    periods will be forfeited.

    Sick leave and other types of nonvested leave are expensed as taken.

    Capital Lease Liabilities are liabilities resulting from capital leases of equipment. The Library’s lease
    agreements are annual fiscal year contracts that are subject to the availability of funding. The agreements
    contain a lease to purchase provision and there is no penalty for discontinuing the lease and turning back
    equipment prior to the completion of the agreement. There were no capital leases in fiscal years 2009 or 2008.

O. Federal Employee Retirement Benefits
Approximately 25 percent and 28 percent of the Library's employees participated in the Civil Service Retirement
System (CSRS) during fiscal years 2009 and 2008, respectively, to which the Library makes contributions equal to
7.0 percent of pay. Approximately 2 and 3 percent of employees under CSRS during fiscal years 2009 and 2008 are
also covered by Social Security (FICA), for which the Library’s contribution is slightly less.

Approximately 72 percent and 69 percent of the Library’s employees were covered by the Federal Employees
Retirement System (FERS) during fiscal years 2009 and 2008, respectively, to which the Library's normal
contribution was 11.2 percent of pay during fiscal years 2009 and 2008. Additionally, for employees under FERS,
the Library contributes an automatic 1% of employee's pay, plus matches employee Thrift Savings Plan (TSP)
contributions up to 4 percent of pay (matched dollar-for-dollar on the first 3 percent of pay and 50 cents on the
dollar for the next 2 percent of pay). Under FERS, the employee is also covered by FICA to which the Library
contributes the employer's matching share.

Approximately 3 percent of the Library's employees were covered only by FICA during fiscal years 2009 and 2008,
to which the Library contributes the employer’s matching share.

The accrued contributions due at the end of the fiscal year are reported as liabilities covered by budgetary resources.

The actuarial present value of accumulated benefits, assets available for benefits, and unfunded pension liability of
Social Security, FERS and CSRS is not allocated to individual Federal departments and agencies. However, in
accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” current year expenses were
recorded for the service cost of the Library’s employee retirement, health and life insurance benefits during fiscal
years 2009 and 2008, and was offset by an imputed financing source, which represents the amount being financed
directly by OPM.

P. Federal Government Transactions

The financial activities of the Library interact with and depend on other federal government agencies. Thus, the
Library's financial statements do not reflect all financial decisions and activities applicable to it as if it were a stand-
alone entity. The financial statements do not contain the cost of activities performed for the benefit of the entire
government, nor do they include the agency's share of the federal deficit or of public borrowings, including interest
thereon. However, expenses have been recognized for expenses incurred by certain other agencies on behalf of the
Library, including settlement of claims and litigation paid by the Treasury’s Judgment Fund and the partial funding
of employee benefits by OPM.

The Library's program for the blind and physically handicapped participates in the U.S. Postal Service's (USPS)
"Matter for Blind and Other Handicapped Persons" program (39 U.S.C. 3403 - 3406). This Postal Service program
receives an appropriation from Congress to provide free postage for qualifying organizations, programs, and
individuals such as mail from war zones, letters from blind people to anyone, and organizations that work for the
blind. The Library's National Library Service for the Blind and Physically Handicapped uses this free matter



                                                                                                                               33
Notes to the Consolidated Financial Statements


     program for mailing all books and equipment to its participating lending libraries and patrons. No cost for this has
     been determined, nor included in the Library’s financial statements as the Library views the relationship with the
     USPS and state and local libraries as a partnership and not inter-entity costs.

     Services Provided to other Federal Agencies:

         •    The Library is authorized to provide to other federal libraries and agencies services such as automated
              library information and other data base retrieval services through data base vendors and in-house research
              studies. These services are provided on a cost reimbursement basis and are billed in advance of providing
              the services. At year-end the Library estimates the amount received in advance (Advances From Others -
              Intragovernmental) and the amount to be received for services provided (Accounts Receivable -
              Intragovernmental).

     Services Provided by other Federal Agencies:

     Three governmental agencies provide administrative services to the Library on a reimbursable basis.

         •    The Department of Agriculture's National Finance Center (NFC) processes the Library's personnel, payroll,
              and employee benefits accounting transactions.

         •    The Library utilizes the services of the Department of State as documented by the International Cooperative
              Administrative Support Services (ICASS) system to support the Library's six overseas field offices.

         •    General Services Administration (GSA) provides building and vehicle leasing services for the Library.

     Q. Related Party Organizations

     The Library lends support to several related organizations, projects, and programs from which it receives benefits in
     various forms. The following is a list of these organizations or programs:

         1.   Telephone Pioneers of America - The Telephone Pioneers is a large industry-related organization that
              voluntarily repairs playback machines for the blind and physically handicapped program. Approximately
              1,500 Telephone Pioneers (AT&T retirees) and Elfuns (General Electric retirees) donate their time to repair
              the cassette book machines and talking book machines.

         2.   Library of Congress Child Care Association (LCCCA) - The LCCCA is a nonprofit corporation under
              the District of Columbia's Nonprofit Corporation Act. It was granted 501(c)(3) status by the Internal
              Revenue Service on August 31, 1992, and currently operates as the "Little Scholars Child Development
              Center." The center is located on the ground floor of the Library's Special Facilities Center, 601 East
              Capitol Street, District of Columbia. The center provides childcare for Library employees and other federal
              and non-federal employees. Its operations, management, and employees are the responsibility of the
              LCCCA and not the Library. However, the Library and the Architect of the Capitol support the center with
              equipment, free space, cleaning and maintenance of grounds and building, utilities, local telephone service,
              and security. The value of the services provided by the Library cannot be readily determined. In addition,
              the Library, in accordance with Public Law 106-554, pays the government contributions for individuals
              receiving health, life and retirement benefits provided by the Office of Personnel Management. The
              Library provides an official who is a non-voting representative on the center's Board of Directors and who
              acts as a liaison with the Library.

         3.   The Archer M. Huntington Charitable Trust - This charitable trust was established in 1936 and is
              controlled and invested by the Bank of New York. The assets of the endowment are not a part of the TFB
              and the board's only control over its investment activities is through the Librarian of Congress' role as
              trustee. The trust is defined as a split-interest agreement with a fair value of assets of $4.3M and $4.6M at
              September 30, 2009 and 2008, respectively. The Library is entitled to one-half of the income from the trust
              for perpetuity, which is used to support a rotating consultantship to bring "distinguished men of letters . . ."
              to the Library. Currently, the income assists in the funding of a "poet laureate" position, the acquisition of


34
                                                                       Notes to the Consolidated Financial Statements


         materials for the Library’s Hispanic collections, and the promotion of activities of the Hispanic Division,
         particularly those that relate to Spain, Portugal and Latin America.

    4.   Ira and Leonore Gershwin Trust Fund and Related Charitable Trust - Under the will of Mrs. Leonore
         Gershwin, the TFB is the beneficiary of 37.5 percent of Mrs. Gershwin's "1987 Trust." The will
         established the "Library Charitable Trust" which was accepted by the TFB in January 1992. The primary
         purpose of the trust is to perpetuate the name and works of George and Ira Gershwin through all resources
         of the Library. The charitable trust does not belong to the Library but is a separate entity administered by
         trustees. The net income of the charitable trust is distributed to the Library's Ira and Leonore Gershwin
         Trust Fund yearly or upon the request of the Library. Income is recorded by the Library in the period
         received. The balance of the Principal of the charitable trust will be distributed to the Library in 2033, fifty
         years after the date of death of Ira Gershwin.

R. Accounting Change

Beginning in fiscal year 2009, the Library adopted SFFAS No. 31, “Accounting for Fiduciary Activities”, which
was effective October 1, 2009. Earlier adoption was not permitted, and the standard precludes restating prior period
amounts presented in the financial statements and notes.

Beginning in fiscal year 2009, the Library’s Balance Sheet, Statement of Net Cost and Statement of Net Position, as
well as notes related to specific items on those statements, will no longer include the results of operations and
financial position of its funds identified as “fiduciary activities.” The adoption of this standard had no effect on the
Statement of Budgetary Resources and the budgetary activities and balances related to the Fiduciary activity will
remain in the Statement of Budgetary Resources. (See Note 21).

Fiduciary activities were included in the statements of the Library as assets and custodial liability on the Balance
Sheet, its activities were included in the Statement of Net Cost and in the Statement of Changes in Net Position, and
disclosed in the notes as “Custodial” Funds, Balances or Activities in fiscal years 2008 and prior.




                                                                                                                            35
Notes to the Consolidated Financial Statements



        NOTE 2               FUND BALANCE WITH TREASURY

     A. Fund balance with Treasury at September 30, 2009 and 2008, is summarized as follows:

                                                                                       (in thousands)
                                                                                 FY 2009            FY 2008
            Appropriated Funds                                              $         250,257 $          234,078
            Revolving and Reimbursable Funds                                           83,657             75,713
            Gift and TFB Funds 1                                                       15,165             15,054
            Custodial (See Note 1.R)                                                         0               111
            Deposit and Other Funds                                                     1,340              1,592
            TOTAL                                                           $         350,419 $          326,548

        1
          At September 30, 2009 and 2008, the gift and TFB fund balance with Treasury included $10 million
        invested in the permanent loan, which is included in fund balance with Treasury, at interest rates of 4.06
        and 4 percent, respectively.

     B. Status of Fund Balance with Treasury
                                                                                        (in thousands)
                                                                                 FY 2009            FY 2008
            Unobligated Balances – Available                                $          58,711     $       22,720
            Unobligated Balances – Unavailable                                         24,357             29,271
            Obligated Balances Not Yet Disbursed                                      266,011            272,854
            Custodial (See Note 1.R)                                                        0                111
            Non-budgetary                                                               1,340              1,592
            TOTAL                                                           $         350,419     $      326,548




36
                                                                  Notes to the Consolidated Financial Statements



    NOTE 3              CUSTODIAL FUNDS

Custodial activity consists of the following:

                                                                               (in thousands)
                                                                         FY 2009             FY 2008
     Beginning Custodial Liability                                  $       1,193,780 $         1,125,291

        Implementation of SFFAS#31 (see note 1.R)                          (1,193,780)
     Adjusted Beginning Custodial Liability                                          0          1,125,291
     Cash Collections:
        Licensing Fees                                              $                    $       249,864
        Investment Interest                                                                       26,177
        Total Cash Collections                                                                   276,041
     Investment Amortization / Accruals                                                            (322)
     Total Custodial Revenue                                        $                    $       275,719

     Disposition of Collections:
       Payments to Copyright Owners                                 $                    $      (204,664)
       Refunds                                                                                    (1,128)
       Change in Investment Premium                                                                 1,795
       Retained by Copyright Licensing for Administrative Costs                                   (3,233)
     Total Custodial Expense                                        $                    $      (207,230)

     Net Custodial Activity                                         $                 $            68,489
     ENDING CUSTODIAL LIABILITY                                     $               0 $         1,193,780




                                                                                                             37
Notes to the Consolidated Financial Statements



         NOTE 4                 INVESTMENTS, NET

     Investments at September 30, 2009 and 2008 are as follows:


                                                                              (in thousands)
                                                      Intragovernmental
                                                         Investments    Other Investments
                          FY 2009                      (Non-Marketable,  (Private Sector)
                                                                                                       Total
                                                        Market-Based)
          Face Value                                  $            42,495 $                      $             42,495
          Cost                                                                          97,044                 97,044
          Unamortized Premium                                         (0)                                         (0)
          Unrealized Discount                                         (9)                                         (9)
          Interest Receivable                                           0                                          0
          Investments, Net                            $            42,486 $             97,044 $          $139,530
          Market Value                                $            42,488 $             78,848 $           121,336



                                                                              (in thousands)
                                                      Intragovernmental
                                                          Investments     Other Investments
                          FY 2008                      (Non-Marketable,     (Private Sector)
                                                                                                       Total
                                                         Market-Based)
          Face Value                                   $        1,244,253 $                  $           1,244,253
          Cost                                                                          91,307                 91,307
          Unamortized Premium                                       1,938                                       1,938
          Unrealized Discount                                       (499)                                       (499)
          Interest Receivable                                         579                                        579
          Investments, Net                             $        1,246,271 $             91,307 $         1,337,578
          Market Value                                 $        1,245,790 $             76,688 $         1,322,479



     A. Intragovernmental Investments

     Non-marketable, market-based securities are Treasury notes and bills issued to governmental accounts that are not
     traded on any securities exchange, but mirror the prices of marketable securities with similar terms. TFB fund
     investment maturity dates for fiscal years 2009 and 2008 range from October 1, 2009 to March 4, 2010 and October
     2, 2008 to March 5, 2009, respectively, and interest rates for the same fiscal years range from .09 percent to .22
     percent and .11 percent to .1.96 percent, respectively.

     Custodial funds maturity duties for 2008 range from October 16, 2008 to August 31, 2009 and interest rates for
     fiscal year 2008 range from .10 percent to 4.625 percent. (See Note 1.R)




38
                                                                        Notes to the Consolidated Financial Statements


B. Other Investments

Other investments are the Library's investments in private sector mutual funds. Cost was derived from the
investments made plus reinvested gains, dividends, and interest.

Balances at September 30, 2009 and 2008 are as follows:


                                            Non-Treasury Investments
                                               Fiscal Year 2009   Fiscal Year 2008



                                                                              $97.0
                                                                                               $91.3
                      $100
                                    $78.9            $76.7
                      $90

                      $80

                      $70
      (in millions)




                      $60

                      $50

                      $40

                      $30

                      $20

                      $10

                       $0
                             Equity Mutual Funds (market value)            Equity Mutual Funds (cost)




                                                                                                                   39
Notes to the Consolidated Financial Statements



         NOTE 5              RECEIVABLES

     The breakdown of consolidated gross and net accounts receivable at September 30, 2009 and 2008 are as follows:

     A. Accounts Receivable

                                                                                           (in thousands)
                                                                                     FY 2009            FY 2008
          Intragovernmental Accounts Receivable, Gross and Net                  $         12,100 $            8,218


          With the Public:
              Accounts Receivable, Gross                                                     534               689
              Less: Allowance for Doubtful Accounts                                          (21)              (30)
              Accounts Receivable, Net                                          $            513     $         659


     B. Pledges Receivable

     At September 30, 2009 and 2008, the Library had unconditional pledges of contributions totaling $15.8 million and
     $11.8 million, which were discounted through fiscal years 2033 and 2034 at a market discount rate and included in
     the statement of financial position at their discounted value of $14.8 million and $10.7 million, respectively.

     The amounts due in future years, at September 30, at their current discounted value are:

                                                                                          (in thousands)
                                                                                    FY 2009            FY 2008
          2009                                                              $                   0 $           7,506
          2010                                                                             5,154              1,137
          2011                                                                             4,785                669
          2012                                                                             3,399                 67
          2013                                                                                 28                26
          2014 and thereafter                                                              1,393              1,319
          TOTAL                                                             $             14,759 $          10,724




40
                                                                       Notes to the Consolidated Financial Statements



    NOTE 6              PROPERTY AND EQUIPMENT

Property and equipment that were capitalized at September 30, 2009 and 2008 are as follows:

                                                                    (in thousands)
                                             FY 2009                             FY 2008
                                            Accumulated                         Accumulated
    Classes of Property         Acquisition                Net Book Acquisition                Net Book
                                            Depreciation /                      Depreciation /
     and Equipment                Value                     Value     Value                     Value
                                            Amortization                        Amortization
Operating Equipment            $    63,311 $       47,780 $ 15,531 $    59,367 $       46,667 $ 12,700
Software                             55,228            27,379      27,849            50,677          19,979      30,698
Furniture & Furnishings               2,224               815       1,409             2,179            696        1,483
Leasehold Improvements               34,445            13,481      20,964            33,715          11,344      22,371
Leasehold Improvements-in
                                      3,385                 0       3,385              304                0         304
Progress
TOTAL                          $    158,593 $          89,455 $    69,138 $      146,242 $           78,686 $    67,556



    NOTE 7              NON-ENTITY ASSETS

Entity assets are those assets that the Library has authority to use for its operations. Non-entity assets are those held
by the Library but are not available for use in its operations.
                                                                                        (in thousands)
                                                                              FY 2009                  FY 2008
 Intragovernmental Non-Entity Assets:
    Fund Balance with Treasury                                           $                       $                 $111
    Investments                                                                                               1,193,669
    Accounts Receivable, Net                                                                                           2
 Total Intragovernmental Non-Entity Assets                                                                    1,193,782

Other Assets-with the Public                                                                26                       23
Total Non-Entity Assets                                                 $                   26   $            1,193,805
Total Entity Assets                                                     $              569,624   $              544,730
Total Assets                                                            $              569,650   $            1,738,535

(See Note 1.R)




                                                                                                                            41
Notes to the Consolidated Financial Statements



         NOTE 8              LEASES

     A. Capital Leases

     The Library did not have assets under capitalized leases for machinery and equipment as of September 30, 2009 and
     2008.

     B. Operating Leases

     The Library leases office space and vehicles from the General Services Administration and has entered into other
     operating leases for various types of equipment. Additionally, the Library’s overseas field offices lease operating
     space from the Department of State.

     Lease costs for office space, vehicles and equipment for fiscal years 2009 and 2008 amounted to $4,556,046 and
     $4,510,495 respectively.

     Under existing commitments as of September 30, estimated future minimum lease payments are as follows:

                                                                                         (in thousands)
                                                                                   FY 2009            FY 2008
          2009                                                               $                 0 $           4,395
          2010                                                                            4,444              4,019
          2011                                                                            1,589              1,451
          2012                                                                              222                131
          2013                                                                              121                104
          2014 and thereafter                                                                 78                 0
          TOTAL ESTIMATED FUTURE LEASE PAYMENTS                               $           6,454 $           10,100



         NOTE 9              WORKERS’ COMPENSATION

     The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered federal
     civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
     beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
     incurred for benefits for Library employees under FECA are administered by the Department of Labor (DOL) and
     later billed to the Library.

     The Library is using estimates provided by DOL to report the FECA liability. The Library accrued $1,657,043 and
     $1,554,776 of unbilled or unpaid workers' compensation costs as of September 30, 2009 and 2008, respectively.
     The amount owed to DOL is reported on the Library’s Balance Sheet as an intragovernmental liability. The Library
     also established an estimated unfunded liability payable to employees, for future costs based on historical claims
     rates. The estimated future unfunded liability is $6,743,165 and $7,610,625 as of September 30, 2009 and 2008
     respectively, and is based on a ten-year projection. This liability is recorded on the Balance Sheet as a liability with
     the public.




42
                                                                    Notes to the Consolidated Financial Statements



   NOTE 10             CONTINGENT LIABILITIES

Several claims relating to employment matters are outstanding against the Library. While management cannot
predict the outcome of the claims and is unable to estimate the potential loss, the maximum loss under each claim
may not exceed $300,000 in compensatory damages, plus any equitable relief (back pay, front pay, attorney's fees).
Under law, any claims settled internally would be paid from the Library's funds and any claims defended in court
would be settled by the Treasury's Claims, Judgments and Relief Act Fund.


   NOTE 11             OTHER LIABILITIES

Other Liabilities as of September 30, 2009 and 2008 are comprised of the following:

                                                                                   (in thousands)
                                                                            FY 2009               FY 2008
     Other Liabilities-Intragovernmental:
     Deferred Credits                                                   $               (7)   $              (20)
     Liability for Clearing Accounts                                                    68                     30
        Total Intragovernmental                                                         61                     10

     Other Liabilities-With the Public
     Deferred Credits and Pledges                                                     1,096                 1,968
     Advances from the Public                                                         1,699                 3,558
        Total with the Public                                                         2,795                 5,526
     TOTAL                                                              $             2,856   $             5,536



                       LIABILITIES COVERED AND NOT COVERED
   NOTE 12
                       BY BUDGETARY RESOURCES

                                                                                   (in thousands)
                                                                            FY 2009             FY 2008
     Liabilities Covered by Budgetary Resources                     $            120,794 $          1,304,584
     Liabilities Not Covered by Budgetary Resources:
        Intragovernmental                                                          1,657                 1,555
        With the Public                                                           32,348                31,140
     TOTAL                                                          $            154,799 $           1,337,279

Liabilities covered by budgetary resources include accounts payable, advances from others, accrued funded payroll
and benefits, custodial liabilities, deposit account liabilities, advances from the public, and deferred credits.

Liabilities not covered by budgetary resources include accrued unfunded annual and compensatory leave, accrued
unfunded workers compensation, and other unfunded liabilities.




                                                                                                                     43
Notes to the Consolidated Financial Statements


     `
          NOTE 13                  PROGRAM COSTS BY BUDGET OBJECT CLASSIFICATION
                                                           (Dollars in Thousands)
         FY 2009 Program Costs by Budget Object Classification


                                                                         Other Program Costs
                                               Depreciation and                $40,868
                                                Amortization                     5%
                                                  $15,853
                         Non-Capitalizable           2%
                           Equipment
                             $11,697
                               1%



                          Library Materials
                              $78,047
                                 9%
                                                                                               Personnel Services
                                                                                                  and Benefits
                                                                                                   $453,080
                      Contractual Services                                                           53%
                           $254,599
                             30%




         FY 2008 Program Costs by Budget Object Classification

                                        Depreciation and        Other Program Costs
                                         Amortization                 $41,453
                                           $14,465                      5%
              Non-Capitalizable               2%
                Equipment
                  $3,280
                    0%




               Library Materials
                   $67,309
                      9%



                                                                                                 Personnel Services
                                                                                                    and Benefits
          Contractual Services                                                                       $432,818
               $220,046                                                                                56%
                 28%




     The Library’s collections are classified as “heritage assets.” $25.4 million and $22.1 million of the amount
     designated as “Library Materials” above represents the fiscal years 2009 and 2008 cost incurred by the Library for
     “heritage assets.”


44
                                                                      Notes to the Consolidated Financial Statements



                        PROGRAM COSTS AND EARNED REVENUE
   NOTE 14
                        BY FUNCTIONAL CLASSIFICATION

A. Program Costs by Functional Classification

                                                                                    (in thousands)
                                                                           FY 2009                FY 2008
     Commerce and Housing Credit                                      $          56,813      $           37,778
     Education, Training, Employment, and Social Services                       679,371                 631,326
     General Government                                                         117,960                 110,267
     TOTAL                                                            $         854,144      $          779,371


B. Earned Revenue by Functional Classification

                                                                                   (in thousands)
                                                                           FY 2009              FY 2008
     Commerce and Housing Credit                                      $          30,027 $              32,828
     Education, Training, Employment, and Social Services                        87,660                83,050
     General Government                                                               10                   23
     TOTAL                                                            $         117,697 $             115,901




   NOTE 15              EXCHANGE REVENUES

In accordance with Library of Congress Regulation (LCR) 1510, Financial Services, the Library must comply with
any OMB circular or bulletin if it is specifically prescribed in (1) a LCR, (2) a FSD Directive, or (3) if required by
law. OMB Circular No. A-25, User Charges, does not fall into any of these three categories, but may be used by the
Library as a useful point of reference. Circular No. A-25 requires that user charges be sufficient to recover the full
costs to the federal government. Full costs include all direct and indirect costs to any part of the federal government
of providing the good or service, including unreimbursed inter-entity costs.

The Copyright Office’s registration operations have legislatively mandated fees, which do not require the recovery
of the full costs of operations. The Register is authorized to fix fees at a level not more than necessary to recover
reasonable costs incurred for services plus a reasonable adjustment for inflation. Fees should also be fair and
equitable and give due consideration to the objectives of the copyright system.

If the Library were to increase fees and prices to recover full costs to the government for providing these goods and
services, this would in some cases reduce the quantity of goods and services demanded. It is not practicable to
provide reasonable estimates regarding (1) revenue foregone from charging fees that do not recover full costs to the
government and (2) to what extent the quantity of goods and services demanded would change as a result of changes
in prices and fees.




                                                                                                                          45
Notes to the Consolidated Financial Statements



                        PROGRAM COSTS AND EARNED REVENUE
       NOTE 16
                        FOR REVOLVING FUNDS

                                                                                    (in thousands)
                                                                               FY 2009         FY 2008
                Audio Visual Services: Program Cost                          $         127 $           252
                                       Less: Earned Revenue                          (104)           (165)
                                       Net Program Cost                                 23              87


              Cooperative Acquisitions Program Cost                                     2,490          2,734
                            Program: Less: Earned Revenue                             (2,813)        (3,095)
                                       Net Program Cost                                 (323)          (361)

                Decimal Classification: Program Cost                                     247            327
                                        Less: Earned Revenue                           (306)          (249)
                                        Net Program Cost                                (59)             78


           Document Reproduction and Program Cost                                       2,195          2,728
                  Microfilm Services: Less: Earned Revenue                            (1,086)        (1,425)
                                      Net Program Cost                                  1,109          1,303

                 Gift Shop Operations: Program Cost                                     1,564          1,675
                                       Less: Earned Revenue                           (1,552)        (1,492)
                                       Net Program Cost                                    12            183

            Federal Research Division: Program Cost                                     3,038          2,870
                                       Less: Earned Revenue                           (3,508)        (2,477)
                                       Net Program Cost                                 (470)            393

                           FEDLINK: Program Cost                                       73,217         67,856
                                    Less: Earned Revenue                             (71,876)       (67,694)
                                    Net Program Cost                                    1,341            162

                       Special Events: Program Cost                                     2,586          2,784
                                       Less: Earned Revenue                           (1,111)        (1,349)
                                       Net Program Cost                                 1,475          1,435

                                        Total Program Cost                             85,464         81,226
                                        Less: Total Earned Revenue                   (82,356)       (77,946)
                                        TOTAL PROGRAM COSTS                  $          3,108   $      3,280

                                 These programs are discussed further in Note 1.D.




46
                                                                              Notes to the Consolidated Financial Statements



  NOTE 17                CLASSIFICATION OF PROGRAM COSTS


                                                                               (in thousands)
                                                Intragovernmental               Public
                                                              Non-                     Non-                   Total
               FY 2009                       Production
                                                           Production
                                                                       Production
                                                                                    Production
National Library                             $   121,409 $          24 $ 340,272 $          204 $               461,909
Law Library                                           7,813               1          17,172                      24,986
Copyright Office                                     19,036               5          54,845                      73,886
Congressional Research Service                       31,550              19         107,842                     139,411
National Library Service for the Blind
                                                      6,533               5          45,494                      52,032
and Physically Handicapped
Revolving and Reimbursable Funds                      6,907              19          94,994                     101,920
TOTAL                                        $      193,248 $            73 $       660,619 $        204 $    854,144




                                                                              (in thousands)
                                                   Intragovernmental                       Public
                                                                                                 Non-         Total
              FY 2008                    Production          Non-Production      Production
                                                                                              Production
National Library                         $       119,437     $            29 $       310,328 $        122 $     429,916
Law Library                                        8,261                   1          15,191            0        23,453
Copyright Office                                  20,612                 (1)          33,071          (1)        53,681
Congressional Research Service                    29,288                  14          99,897            0       129,199
National Library Service for the                                          10
                                                   7,796                              37,672            0        45,478
Blind and Physically Handicapped
Revolving and Reimbursable Funds                   6,846                  25          90,773            0        97,644
TOTAL                                    $       192,240 $                78 $       586,932 $        121 $     779,371




                                                                                                                          47
Notes to the Consolidated Financial Statements



         NOTE 18             EARMARKED FUNDS

     SFFAS No. 27, “Identifying and Reporting Earmarked Funds”, effective October 1, 2005, defines “earmarked
     funds” as those being financed by specifically identified revenues, often supplemented by other financing sources,
     which remain available over time. These specifically identified revenues and financing sources are required by
     statute to be used for designated activities, benefits or purposes, and must be accounted for separately from the
     Government’s general revenues. The Library’s consolidated financial statements include the results of operations
     and financial position of its funds identified as “earmarked funds.” The Library’s earmarked funds are presented
     among the following classifications:

     •   Collections of fees authorized annually for use by appropriations act for:
         • The Cataloging Distribution Service (CDS), which is the distribution arm for the Library of Congress
             bibliographic data and related technical publications. Pursuant to 2 U.S.C. 150, CDS sells its products to
             libraries throughout the United States and around the world and charges “…a price which will cover their
             costs plus ten per centum added.” CDS earned revenues were $3,775,257 and $4,050,383 for fiscal year
             2009 and 2008, respectively.
         • The Law Library, pursuant to Public Law 105-275, Section 208, is authorized to receive funds from
             participants in and sponsors of an international legal information database (known as the Global Legal
             Information Network (GLIN)) led by the Law Library of Congress. Fees for the development and
             maintenance of GLIN were $20,000 and $2,500 for fiscal year 2009 and 2008, respectively; and
         • The Copyright Office, pursuant to 17 U.S.C. 708(d), is authorized to collect fees for the registration of a
             copyright claim and other copyright recordation and filing activities. Fees collected for these services
             were $27,110,693 and $29,592,084 for fiscal 2009 and 2008, respectively.
         • The Recycling Program, pursuant to Public Law 108-199, Section 607, is authorized to collect funds
             resulting from the sale of materials recovered through the recycling program. Fees collected for the
             program were $26,386 and $25,408 for the fiscal years 2009 and 2008.

     •   Public Revolving Funds authorized by 2 U.S.C. 182 for the Cooperative Acquisitions, Audio and Video
         Duplication, Gift Shop Operations, Decimal Classification, Document Reproduction and Microfilm Services,
         and Special Events (these programs are discussed further in Note 1.D. and 16);

     •   Gift and TFB Funds authorized by 2 U.S.C. 154-163 (and discussed further in Note 1. E.). Gift and TFB Fund
         cash donations and other realized revenues were $17,231,102 and $23,566,677 for fiscal year 2009 and 2008,
         respectively; and

     •   Other earmarked funds not outlined above (combined revenues of $1,597 and $2,634 for fiscal year 2009 and
         2008, respectively), including: The Oliver Wendell Holmes Devise Fund, which is authorized to fund lectures
         known as the “Oliver Wendell Holmes Lectures” and other projects pertaining to Justice Holmes or the
         Supreme Court (Pursuant to Public Law 84-247); The Gertrude M. Hubbard Bequest, which benefits the
         Gardiner Greene Hubbard Collection (Pursuant to 37 Stat. 319-20); and the Foreign Service National Separation
         Liability Trust Fund, which is authorized to provide the separation pay for foreign national employees (Pursuant
         to Section 151 of Public Law 102-138).

     The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
     earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited into the U.S.
     Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the Library as
     evidence of its receipts. Treasury securities are an asset to the Library and a liability to the U.S. Treasury. Because
     the Library and the U.S. Treasury are both parts of the Government, these assets and liabilities offset each other
     from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the
     U.S. Government-wide financial statements. Treasury Securities provide the Library with authority to draw upon
     the U.S. Treasury to make future expenditures. When the Library requires redemption of these securities to make
     expenditures, the Government finances those expenditures out of accumulated cash balances, by raising taxes or
     other receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the
     same way the Government finances all other expenditures.


48
                                                                       Notes to the Consolidated Financial Statements


Fiscal data as of, and for the year ended September 30, 2009 is summarized below. Intra-agency transactions have
not been eliminated in the amounts presented below.

                                                                        (in thousands)
                                      Offsetting        Public                             Other       Total
                                                                         Gift and
              FY 2009                 Collections      Revolving
                                                                        TFB Funds
                                                                                         Earmarked   Earmarked
                                        Funds           Funds                              Funds       Funds
Balance Sheet:
 Fund Balance with Treasury           $     17,908 $         7,590 $         14,160 $         1,005 $     40,663
 Investments in U.S. Treasury
                                                 0                 0         36,919             66        36,985
 Securities
 Other Assets                               11,417             707           94,792               0      106,916
Total Assets                          $     29,325 $         8,297 $        145,871 $         1,071 $    184,564

 Liabilities                       $         4,985 $         4,961 $          1,099 $             0 $     11,045
 Cumulative Results of Operations           24,340           3,336          144,772           1,071      173,519
Total Liabilities and Net Position $        29,325 $         8,297 $        145,871 $         1,071 $    184,564

Statement of Net Cost:
  Program Costs                       $     34,645 $         9,897 $         17,498 $           69 $      62,109
  Less: Earned Revenue                    (30,932)         (8,774)            (906)              0      (40,612)
Net Cost of Operations                $      3,713 $         1,123 $         16,592 $           69 $      21,497

Statement of Changes in Net
Position:
Net Position, Beginning               $     26,156 $         3,248 $ 146,878 $                1,036 $   177,318
  Net Cost                            $    (3,713) $       (1,123) $ (16,592) $                (69) $   (21,497)
  Non-Exchange Revenues                          0               0         583                    1          584
  Other Financing Sources                    1,897           1,211      13,903                  103       17,114
Change in Net Position                     (1,816)              88     (2,106)                   35      (3,799)
Net Position, Ending                  $     24,340 $         3,336 $ 144,772 $                1,071 $   173,519




                                                                                                                   49
Notes to the Consolidated Financial Statements



     Fiscal data as of, and for the year ended September 30, 2008 is summarized below.

                                                                            (in thousands)
                                           Offsetting        Public                            Other       Total
                                                                             Gift and
                   FY 2008                 Collections      Revolving
                                                                            TFB Funds
                                                                                             Earmarked   Earmarked
                                             Funds           Funds                             Funds       Funds
     Balance Sheet:
      Fund Balance with Treasury           $     14,314 $         7,556 $        14,065 $           989 $    36,924
      Investments in U.S. Treasury
                                                      0                 0        47,235             67       47,302
      Securities
      Other Assets                               16,753           1,072          88,021                     105,846
     Total Assets                          $     31,067 $         8,628 $       149,321 $         1,056 $   190,072

      Liabilities                       $         4,911 $         5,380 $         2,443 $            20 $    12,754
      Cumulative Results of Operations           26,156           3,248         146,878           1,036     177,318
     Total Liabilities and Net Position $        31,067 $         8,628 $       149,321 $         1,056 $   190,072

     Statement of Net Cost:
       Program Costs                       $     30,037 $        11,406 $        19,355 $           82 $      60,880
       Less: Earned Revenue                    (33,670)        (10,280)           (747)             (0)     (44,697)
     Net Cost of Operations                $    (3,633) $         1,126 $        18,608 $           82 $      16,183

     Statement of Changes in Net
     Position:
     Net Position, Beginning               $     19,891 $         3,304 $ 167,552 $                 966 $   191,713
       Net Cost                                   3,633         (1,126)   (18,608)                 (82) $   (16,183)
       Non-Exchange Revenues                          0               0      1,602                    3        1,605
       Other Financing Sources                    2,632           1,070    (3,668)                  149          183
       Change in Net Position                     6,265            (56)   (20,674)                 (70)     (14,395)
     Net Position, Ending                  $     26,156 $         3,248 $ 146,878 $               1,036 $   177,318




50
                                                                        Notes to the Consolidated Financial Statements



     NOTE 19                BUDGETARY RESOURCES

 Budgetary resources are classified as follows:

                                                                      (in thousands)
                                                 FY 2009                                       FY 2008
                                                   Non-                                          Non-
                                Appropriated                                     Appropriated
                                                Appropriated       Combined                   Appropriated     Combined
                                  Capital                                          Capital
                                                  Capital                                       Capital
Budgetary Resources:
Unobligated Balance, Brought
                                $     21,682         1,251,940      1,273,622    $      50,125 $   1,188,039 $ 1,238,164
Forward, October 1
Recoveries of Prior-Year
                                      11,649           10,001          21,650            8,572       10,758        19,330
Obligations
Budget Authority:
 Appropriation                       607,096          286,320         893,416          564,460      295,910       860,370
 Spending Authority from
 Offsetting Collections:
  Earned:
   Collected                             403          132,120         132,523             273       129,118       129,391
   Change in Receivables
                                         349             (170)            179             (82)         (732)        (814)
   from Federal Sources
  Change in Unfilled
  Customer Orders:
   Advances Received                       0            2,939           2,939               0         2,472         2,472
   Without Advances from
                                           0            3,726           3,726               0        (1,340)      (1,340)
   Federal Sources
 Expenditure Transfers from
 Trust Funds
Subtotal Budget Authority            607,848          424,935       1,032,783          564,651      425,428       990,079
Nonexpenditure Transfers, Net         (2,411)             560          (1,851)           (748)                      (748)
Temporarily Not Available
                                           0                   0            0               0             0               0
Pursuant to Public Law
Permanently Not Available             (5,061)             (29)         (5,090)          (6,412)        (635)      (7,047)
Total Budgetary Resources       $    633,707         1,687,407      2,321,114    $     616,188 $   1,623,590 $ 2,239,778

Status of Budgetary
Resources:
Obligations Incurred:
  Direct                        $    590,836          301,494         892,330    $     594,506 $    229,889 $     824,395
  Reimbursable                                        137,784         137,784                0      141,761       141,761
Total Obligations Incurred           590,836          439,278       1,030,114          594,506      371,650       966,156
Unobligated Balance (Exempt
                                      29,437         1,247,231      1,276,668            9,422     1,251,371    1,260,793
from Apportionment)
Unobligated Balance – Not
                                      13,434              898          14,332           12,260          569        12,829
Available
Total Status of Budgetary
                                $    633,707    $    1,687,407 $ 2,321,114       $     616,188 $   1,623,590 $ 2,239,778
Resources




                                                                                                                              51
Notes to the Consolidated Financial Statements



                                                                          (in thousands)
                                                      FY 2009                                       FY 2008
                                                        Non-                                          Non-
                                     Appropriated                                     Appropriated
                                                     Appropriated     Combined                     Appropriated           Combined
                                       Capital                                          Capital
                                                       Capital                                       Capital
     Change in Obligated
     Balance:
     Unpaid Obligated Balance,
     Net, Brought Forward,
     October 1:
      Unpaid Obligations, Brought
                                     $     212,578   $      68,722 $      281,300      $    168,988 $           71,427 $      240,415
      Forward
      Less: Uncollected Customer
                                             (141)          (8,446)        (8,587)             (223)           (10,518)       (10,741)
      Payments, Brought Forward
     Total Unpaid Obligation
                                           212,437          60,276        272,713           168,765             60,909        229,674
     Balance, Net
      Obligations Incurred, net            590,836          439,278      1,030,114           594,506            371,650        966,156
      Less: Gross Outlays                (583,848)        (427,903)    (1,011,751)         (542,344)          (363,597)      (905,941)
      Less: Recoveries of Prior-
                                          (11,649)         (10,001)      (21,650)            (8,572)           (10,758)       (19,330)
      Year Unpaid Obligations
      Change in Uncollected
      Customer Payments from                 (349)          (3,556)        (3,905)                82             2,072             2,154
      Federal Sources
     Total Unpaid Obligated
     Balance, Net:
      Unpaid Obligations                   207,917          70,096        278,013           212,578             68,722        281,300
      Less: Uncollected Customer
      Payments from Federal                  (490)         (12,002)      (12,492)              (141)            (8,446)           (8,587)
      Sources
     Total Unpaid Obligated
                                     $     207,427   $      58,094 $      265,521      $    212,437 $           60,276 $      272,713
     Balance, Net, End of Period

     Net Outlays:
      Gross Outlays                  $     583,848          427,903     1,011,751      $    542,344 $           363,597 $      905,941
      Less: Offsetting Collections           (403)        (135,059)     (135,462)             (273)           (131,591)      (131,864)
      Less: Distributed Offsetting
                                                0           (6,404)        (6,404)                    0        (29,153)       (29,153)
      Receipts
     Total Net Outlays               $     583,445   $     286,440 $      869,885      $    542,071 $           202,853 $     744,924

      For TFB funds, approximately $10.0 and $16.7 million of unobligated authority for fiscal years 2009 and 2008,
      respectively, at the donor’s request, is restricted from being spent on program costs (income from investing
      restricted donations under the Library’s Total Return Policy can be spent on program costs). These amounts are
      invested either in the permanent loan or in Treasury securities. An additional $79.0 and $76.0 million of restricted
      authority has been obligated and expended to invest in non-Treasury securities for the fiscal years 2009 and 2008,
      respectively.

      Undelivered orders, end of period:

                                                                                               (in thousands)
                                                                                     FY 2009                   FY 2008
            Paid                                                             $                  558       $               1,305
            Unpaid                                                                         206,887                    214,359
            TOTAL                                                            $             207,445        $           215,664




52
                                                                   Notes to the Consolidated Financial Statements



                     RECONCILIATION OF NET COST OF
  NOTE 20
                     OPERATIONS TO BUDGET
                                                                                             (in thousands)
                                                                                         FY 2009        FY 2008
RESOURCES USED TO FINANCE ACTIVITIES
  Budgetary Resources Obligated:
     Obligations Incurred                                                            $    1,030,114 $       966,156
     Less: Spending Authority from Offsetting Collections and Recoveries                  (161,017)       (149,040)
     Obligations Net of Offsetting Collections and Recoveries                               869,097         817,116
     Less: Distributed Offsetting Receipts                                                   (6,404)       (29,153)
     Net Obligations                                                                        862,693         787,963
  Other Resources:
     Donations of Property and Services                                                      44,025              25,537
     Imputed Financing from Costs Absorbed by Others                                         92,066              81,271
     Exchange Revenue not in the Budget                                                          48                  84
     Non-exchange Revenue not in the Budget                                                 (1,315)             (1,560)
     Trust/Special Fund Exchange Revenue Receipts                                             (305)             (3,976)
     Other Resources (+/-)                                                                  (2,667)           (23,985)
  TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                               994,545             865,334

RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF OPERATIONS
  Change in Budgetary Resources Obligated for Goods, Services, and Benefits                 16,259            (32,459)
  Ordered but Not Yet Provided (+/-)
  Resources that Fund Expenses Recognized in Prior Period                                     (868)                  0
  Resources that Finance the Acquisition of Assets                                         (23,500)           (33,717)
  Budgetary Offsetting Receipts that do not Affect Net Cost of Operations                     6,404             29,153
  Other Resources or Adjustments to Net Obligated Resources that do not Affect Net
                                                                                            (1,524)       (207,528)
  Cost of Operations (+/-)
  Fiduciary Obligations Net of Offsetting Collections and Recoveries                      (276,649)                  0
  TOTAL RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
                                                                                          (279,878)       (244,551)
  OPERATIONS

TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                 714,667            620,783

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
GENERATE RESOURCES IN THE CURRENT PERIOD
   Components Requiring or Generating Resources in Future Periods:
      Increase in Annual Leave Liability and Actuarial Liability                             2,178               1,152
      Other                                                                                      0                   0
   Total Components Requiring or Generating Resources in Future Periods                      2,178               1,152
   Components not Requiring or Generating Resources:
      Depreciation and Amortization                                                         15,853             14,465
      Revaluation of Assets or Liabilities                                                   3,717             27,129
      Other Costs not Requiring or Generating Budgetary Resources (+/-)                         32               (59)
   Total Components not Requiring or Generating Resources                                   19,602             41,535
TOTAL COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE
                                                                                            21,780             42,687
OR GENERATE RESOURCES IN THE CURRENT PERIOD


NET COST OF OPERATIONS                                                               $     736,447 $          663,470




                                                                                                                          53
Notes to the Consolidated Financial Statements



        NOTE 21              Fiduciary Activity and Net Assets (See Note 1.R)

     SFFAS No. 31, “Accounting for Fiduciary Activities”, effective October 1, 2009, defines “fiduciary activity” as
     those Federal Government activities that relate to the collection or receipt, and the subsequent management,
     protection, accounting, investment and disposition of cash or other assets in which non-Federal parties have an
     ownership interest that the Federal Government must uphold.

     Fiduciary assets are not assets of the Library of Congress. Beginning in fiscal year 2009, the Library’s Balance
     Sheet, Statement of Net Cost and Statement of Net Position will no longer include the results of operations and
     financial position of its funds identified as “fiduciary activities.” The Statement of Budgetary Resources remains
     unchanged. The new FASAB standard precludes restating prior year amounts.

     The Library of Congress Copyright Office Licensing Division administers the compulsory and statutory licenses
     covered by the Copyright Act (17 U.S.C.). The Licensing Division receives royalty fees from cable television
     operators for retransmitting television and radio broadcasts, from satellite carriers for retransmitting "super station"
     and network signals, and from importers and manufacturers for distributing digital audio recording technologies
     (DART). Refunds may arise when a cable, satellite, or DART remitter inadvertently overpays or is otherwise
     entitled to a refund. Additional royalty fees may also be requested from the remitter when necessary. The Licensing
     Division invests the licensing royalty fees in market-based U.S. Treasury notes and bills. Because these investments
     are held in a custodial capacity for the copyright owners, income does not accrue to the Library's benefit.

     Controversies regarding the distribution of the royalties are resolved by the Copyright Royalty Board (CRB), which
     is composed of three Copyright Royalty Judges and their staff. The CRB has full jurisdiction over setting royalty
     rates and terms and determining distributions. Decisions may be appealed to the United States Court of Appeals for
     the District of Columbia Circuit.

     Investments - Copyright royalties collected by the Copyright Office on behalf of copyright owners are invested, net
     of service fees, in U.S. Treasury securities. Treasury securities are intended to be held to maturity, are valued at cost
     and are adjusted for the amortization of discounts and premiums. Interest is computed using the straight-line
     method, which approximates the effective interest method. These investments will be held until distributions are
     made to copyright owners. Income accrues to the benefit of the copyright owners.

     Intragovernmental Investments
     Non-marketable, market-based securities are Treasury notes and bills issued to governmental accounts that are not
     traded on any securities exchange, but mirror the prices of marketable securities with similar terms.
     Fiduciary funds investment maturity dates for fiscal year 2009 range from October 15 to August 31 2010 and
     interest rates for fiscal year 2009 range from .002 percent to 2.75 percent.




54
                                                                  Notes to the Consolidated Financial Statements


Fiduciary Activity consists of the following:

                                                                               (in thousands)
                                                                         FY 2009            FY 2008
     Beginning Fiduciary Net Assets                                 $                0 $
       Implementation of SFFAS#31 (See Note 1.R)                            1,193,780
     Adjusted Beginning Fiduciary Net Assets                                1,193,780
       Licensing Fees                                                         262,104
       Investment Earnings                                                      4,028
       Gain (Loss) on Disposition of Investments, Net                                0
     Total Net Inflows to Fiduciary Net Assets                                266,132
       Payments to Copyright Owners                                         (272,871)
       Refunds of Licensing Fees                                                 (858)
       Retained by Copyright Licensing for Administrative Costs                (2,920)
     Total Outflows from Fiduciary Net Assets                               (276,649)

     Subtotal Net Fiduciary Activity                                         (10,517)
     ENDING FIDUCIARY NET ASSETS                                     $      1,183,263 $


Net Fiduciary Assets consist of the following:

                                                                               (in thousands)
                                                                         FY 2009            FY 2008
     Fiduciary Assets
        Fiduciary Fund Balance with Treasury                        $             627 $
        Investments in U.S. Treasury Securities                             1,182,273
        Accrued interest from U.S. Treasury Securities                            363
        Other Assets                                                                0
        Less: Accounts Payable                                                      0
     TOTAL FIDUCIARY NET ASSETS                                     $       1,183,263 $




                                                                                                             55
Management Report


                                   THE LIBRARY OF CONGRESS
                                                 Management Report
                                             Fiscal Year Ended September 30, 2009




                                    Assessment of Condition of Heritage Assets
     The Library has the world's largest library collection, including research materials in over 470 languages and various
     media. Providing access to this collection inevitably puts it at risk and could impair the Library's ability to serve the
     Congress and other users in the future. However, the collections exist to be used, and management accepts the
     responsibility of mitigating risk to the collections at the same time it fulfills its mission of service to the Congress
     and the nation. Therefore, the Library has chosen to balance the usage of the collection with the long-term
     preservation requirements of the collections.

     As of September 30, 2009, the collections were determined to be in a useable condition for fulfilling its service
     mission. During fiscal year 2009, only a very small number of collection items were removed from the collection
     because of damage caused by use and/or deterioration of the medium. The ultimate useful life of a library item
     varies by its medium (e.g., book, film, tape, manuscript, disk), and the manner in which it is used and stored.

     The Library employs a variety of methods, supported by preservation research and testing, to prolong the useful life
     of its collections, including:

         •    The establishment of adequate environmental storage conditions
         •    The usage of binding or other methods to house items
         •    The mass deacidification of print materials
         •    The use of surrogates in serving the collections to the public
         •    The reformatting of collections to other media

     The Library has inadequate temperature and humidity control in some collections storage areas; inadequate space for
     appropriate storage of collections materials; and insufficient funds for reformatting. These conditions cannot be fully
     addressed with current funds and physical plant. The move of collections into the storage facility at Ft. Meade,
     Maryland, is serving to remedy many of these difficulties for books and paper-based materials, and the acquisition
     of the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia, was a major step in the preservation of
     film and other media.




56
                                                     4501 Ford Avenue, Suite 1400, Alexandria, VA 22302
                                                     PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                             INDEPENDENT AUDITOR’S REPORT

Office of the Inspector General
Library of Congress

We have audited the accompanying consolidated balance sheets of the Library of Congress (the
Library) as of September 30, 2009 and 2008, and the related consolidated statements of net cost,
statements of changes in net position, and combined statements of budgetary resources (hereinafter
referred to as the financial statements) for the year then ended. These financial statements are the
responsibility of the Library’s management. Our responsibility is to express an opinion on these
financial statements based on our audit.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the Library’s financial
statements for the year ended September 30, 2009, are presented fairly, in all material respects, in
conformity with accounting principles generally accepted in the United States of America.

Our consideration of internal control over financial reporting (including the safeguarding of assets)
disclosed no significant deficiencies or material weaknesses.

The results of our tests of compliance with certain provisions of laws and regulations disclosed no
instances of noncompliance that are required to be reported herein under Government Auditing
Standards issued by the Comptroller General of the United States.

The following sections discuss our opinion on the Library’s financial statements, our consideration
of the Library’s internal control over financial reporting, our tests of the Library’s compliance with
certain provisions of applicable laws and regulations, and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the Library as of September 30,
2009 and 2008, and the related consolidated statements of net cost, statements of changes in net
position, and combined statement of budgetary resources for the years then ended. These financial
statements are the responsibility of the Library’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as

                                                                                                             59
amended. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Library as of September 30, 2009 and 2008, and its net cost of operations,
changes in net position, and budgetary resources for the years then ended, in conformity with
accounting principles generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the financial statements referred
to in the first paragraph. The information contained in the Management’s Discussion and Analysis
and Stewardship Report is not a required part of the Library’s financial statements, but is considered
supplementary information required by OMB Circular No. A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of inquiries
of management regarding the methods of measurement and presentation of this information;
however, we did not audit this information and we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we considered the Library’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of the Library’s internal control,
determining whether these controls had been placed in operation, assessing control risk, and
performing tests of the Library’s controls in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial statements and not to provide an opinion on the
internal controls. Accordingly, we do not express an opinion on the effectiveness of the Library’s
internal control over financial reporting and compliance.

We limited our control testing to those controls necessary to achieve the following OMB Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended, control objectives
that provide reasonable, but not absolute assurance, that: 1) transactions are properly recorded,
processed, and summarized to permit the preparation of the financial statements in accordance with
accounting principles generally accepted in the United States of America, and assets are
safeguarded against loss from unauthorized acquisition, use, or disposition; 2) transactions are
executed in compliance with laws governing the use of budget authority, government-wide policies
and laws identified in Appendix E of OMB Bulletin No. 07-04, as amended, and other laws and
regulations that could have a direct and material effect on financial statements. We did not test all
internal controls relevant to the operating objectives broadly defined by the Federal Managers
Financial Integrity Act (FMFIA), such as those controls relevant to ensuring efficient operations.




60
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the Library’s ability to initiate, authorize, record, process,
or report financial data reliably in accordance with generally accepted accounting principles, such
that there is more than a remote likelihood that a misstatement of the Library’s financial statements
that is more than inconsequential will not be prevented or detected by the Library’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements will
not be prevented or detected by the Library’s internal control. Our consideration of internal control
was for the limited purpose described in the second paragraph of this report, and would not
necessarily identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses. We noted no matters involving internal control and its operations that we
consider to be material weaknesses or significant deficiencies.

We noted other matters involving internal control and its operations over financial reporting, which
have been reported to the Library’s management in a separate letter dated January 20, 2010.

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of the Library’s compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts and certain other laws and regulations specified in
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We
limited our tests of compliance to these provisions and did not test compliance with all laws and
regulations applicable to the Library. However, providing an opinion on compliance with certain
provisions of laws and regulations was not an objective of our audit, and, accordingly, we do not
express such an opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no instances
of noncompliance or other matters that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04.

                                                   -----




                                                                                                        61
This report is intended solely for the information and use of the Library’s Office of Inspector
General, Library management, OMB, Government Accountability Office, and Congress, and is not
intended to be, and should not be, used by anyone other than these specified parties.




January 20, 2010
Alexandria, Virginia




62
